<html>
<title> - NATIONAL HERITAGE AREAS</title>
<body><pre>[Senate Hearing 108-692]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-692

                        NATIONAL HERITAGE AREAS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2543

TO ESTABLISH A PROGRAM AND CRITERIA FOR NATIONAL HERITAGE AREAS IN THE 
                 UNITED STATES, AND FOR OTHER PURPOSES

                               __________

                             JUNE 24, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-736                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     CRAIG THOMAS, Wyoming Chairman
                  DON NICKLES, Oklahoma Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Hill, Barry T., Director, Natural Resources and Environment, 
  General Accounting Office......................................     7
Jones, A. Durand, Deputy Director, National Park Service, 
  Department of the Interior.....................................     3
Obey, Craig D., Vice President for Governmental Affairs, National 
  Parks Conservation Association.................................    30
Rice, Daniel, President and Chief Executive Officer, Ohio and 
  Erie Canalway Coalition, Akron, OH.............................    18
Smith, Robert J., Director, Center for Private Conservation, 
  Washington, DC.................................................    23
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    47

 
                        NATIONAL HERITAGE AREAS

                              ----------                              


                        THURSDAY, JUNE 24, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

     OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. The committee will come to order. Good 
afternoon.
    I want to welcome the Deputy Director of the National Park 
Service, the representative from the General Accounting Office, 
and witnesses to today's National Parks Subcommittee hearing.
    Our purpose today is to receive testimony on S. 2543, a 
bill to establish a program and criteria for the national 
heritage areas in the United States and for other purposes.
    Since March of last year, this subcommittee has had two 
oversight hearings and the General Accounting office has 
conducted a thorough review of the national heritage areas. The 
most apparent and consistent finding has been that criteria are 
needed to establish control over a program with unlimited 
potential for growth.
    Twenty-four national heritage areas currently exist, and 
this subcommittee has received legislation requesting more than 
20 new heritage areas. The potential for growth seems 
unlimited, based on the fact that heritage areas can be as 
narrow as the River of Steel or as broad as the entire State of 
Tennessee. The State of Pennsylvania alone has five national 
heritage areas, and they are requesting a sixth. Each request 
for a new area is accompanied by a request for a million 
dollars per year for 15 years.
    I do believe there are unique places in the country where 
it's appropriate to provide Federal assistance before a State 
or a local organization is able to assume responsibility for 
protecting a designated resource. However, I am concerned about 
the total number of heritage areas that we are establishing, 
the lack of a clear definition and criteria, which I think 
troubles me more than anything--What does ``national heritage'' 
mean?--and the apparent inability to sunset the Federal role of 
established national heritage areas.
    So it's time to define a consistent policy regarding the 
Federal role. S. 2543 does just that. The bill establishes 
specific criteria for designating new national heritage areas. 
Chief among them is national significance, of course, which is 
not always totally clear. It also requires strict accounting 
for Federal funds, and sets a limit of 15 million per year for 
the national heritage area programs.
    So let me thank the witnesses for coming today. We look 
forward to the testimony, and pleased to have you here.
    Senator.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman.
    If I may, I'd like to welcome a group here from Hawaii, 
that's visiting. In particular, this group comes from the 
Hawaii Volcanoes National Park, and they are called the Kapuna 
Consultation Group, which advises the park. So I'm delighted to 
have them here. I want to say aloha and welcome to them. And 
also with them is Cindy Olando, who is the superintendent at 
Hawaii Volcanoes National Park. So, to all of you, welcome to 
Washington, DC, and to this hearing.
    As you know, in recent years we have seen increasing demand 
for national heritage area designations. In addition to the two 
dozen areas that have already been designated by Congress, 
there are currently 16 different heritage area bills pending in 
the Senate. Given the interest, it's especially timely, Mr. 
Chairman, for this hearing on--and let me stress the word, ``on 
your bill,'' S. 2543, the National Heritage Partnership Act. I 
commend you on your efforts to ensure consistent standards for 
the consideration of these new areas.
    In general, I believe that most of the requirements in your 
bill are consistent with criteria that the committee has been 
following with respect to approving heritage area bills in 
recent years. Our larger challenge is the ability to control 
the growth of new heritage areas so that supporters of an area 
that has already been designated have a reasonable expectation 
that the area will be able to receive sufficient funding to 
allow for a successful national heritage area. We also need to 
ensure that the heritage area program doesn't become so 
expensive that it becomes a significant drain on other Park 
Service resources.
    Many of the areas proposed for designation in this Congress 
were also considered by this committee during the previous 
Congress, and most appeared to meet the general standards for 
an appropriate heritage area. The difficult question we face is 
how we allow for an ordered addition of new heritage areas 
without overwhelming the system.
    Today's hearing is a good first step to explore these 
issues, and I look forward, Mr. Chairman, to hearing the 
testimony from our invited witnesses.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you very much. And to your visitors 
from Hawaii, aloha.
    [Group response, ``Aloha.'']
    Senator Thomas. That's what we say in Wyoming all the time.
    [Laughter.]
    Senator Thomas. Well, welcome to the panel. As I mentioned 
before, we have Mr. Durand Jones, Deputy Director, National 
Park Service, Department of the Interior; Mr. Barry Hill, 
Director, Natural Resources and Environment, U.S. General 
Accounting Office.
    So thank you, gentlemen. Your full statements will be made 
part of the record, and we look forward to your comments.
    Mr. Jones.

 STATEMENT OF A. DURAND JONES, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Jones. Yes, thank you, Mr. Chairman. And I'll be happy 
just to highlight my testimony.
    Mr. Chairman and members of the subcommittee, it's my 
pleasure to appear before you today to testify on behalf of the 
Department of the Interior on S. 2543, the National Heritage 
Partnership Act. The Department strongly supports this bill, 
and we have just a few minor suggestions for clarification.
    The Department strongly supports the legislation to 
establish a national heritage area program. I especially want 
to thank you, Mr. Chairman, for your leadership and your 
commitment over the last several years to bringing focus to 
this debate and consideration for this legislation through the 
various seminars and the oversight hearings you've held in 
leading up to this proposed legislation. We think it's been a 
very productive process and has provided a lot of important 
information that has led to this proposal.
    S. 2543 provides a much-needed framework for evaluating 
proposed national heritage area designations, offers guidelines 
for successful planning, clarifies the roles and 
responsibilities of all parties, and standardizes timeframes 
and funding for designated areas. The Department supports the 
national heritage area approach to resource conservation 
through partnerships with communities. National heritage areas 
are locally driven, initiated, and managed by the people who 
live there, and do not impose Federal zoning or land-use 
controls, nor do they require land acquisition.
    S. 2543 supports a conservation strategy that recognizes 
that the people who live in a heritage area are uniquely 
qualified to preserve it. And the role of the Federal 
Government is to help in the beginning phases of a heritage 
area, providing advice, consultation, with some funding 
support, with the ultimate goal that the area should graduate 
from the program and move on with total local control.
    Being designated as a national heritage area can benefit 
visitors, community residents, existing national park units 
located within the area, and other Federal lands by expanding 
the opportunity to interpret and protect resources over a 
larger landscape.
    There are three provisions in the bill that we wish to 
discuss in more detail and offer a few suggestions for 
improvements. The standards for evaluating heritage areas 
proposed for national designation are an essential element in 
establishing a program. While many places in the Nation have 
special meaning to the people that live there, for many places 
designation as a State or a local heritage area may be most 
appropriate. The National Park Service should be a partner only 
when the resources within the proposed area are of national 
importance.
    The Department has some concerns about the term ``national 
significance'' and the definition as provided in the bill. We 
recommend replacing the word ``national significance'' with the 
term ``national importance'' to avoid confusion. The National 
Park Service specifically uses the term ``national 
significance'' in suitability and feasibility studies for new 
units in the National Park System. And, as you know, Mr. 
Chairman, the very premise of heritage areas is that these are 
areas that should not be units of the National Park System, and 
so we think some slightly different language may be 
appropriate.
    The Department believes that a study should be required of 
every proposed national heritage area, and that the study 
should be evaluated against legislatively established criteria 
before designation. S. 2543 requires that such a study be 
prepared that demonstrates evidence of place-based resources 
that tell a nationally significant story and has the support 
and involvement of the local community. The Department 
recommends a modification to the terminology used for studies. 
In order to be consistent with terminology used in past study 
and designated bills for national heritage area, we recommend 
that the studies be called ``feasibility studies'' instead of 
``suitability/feasibility studies.'' Again, this is a very 
technical issue that also seeks to avoid confusion with studies 
that are done for potential units of the National Park System, 
as opposed to just for heritage area designation.
    When the first national heritage corridors were designated, 
20 years ago, the national heritage corridor area was conceived 
as a less expensive alternative to the acquisition and 
operation costs of creating a new unit of the National Park 
System. These areas were originally authorized for 5 years, 
with specific year extensions. Over time, the corridors have 
been reauthorized for additional periods.
    For the 18 national heritage areas established after 1995, 
the National Park Service encouraged management with greater 
involvement by local entities as a more cost-effective use of 
Federal resources. Most of these new areas are managed by a 
nonprofit entity or a State government that includes a funding 
formula of not more than $10 million over a 15-year period. Our 
legislative proposal recommends codifying this approach for the 
first time, and, for the first time, requires that a business 
plan be developed as part of the management planning for a 
proposed new area. The business plan, we think, is an important 
element of a study, because it would allow the local entity, 
from the very beginning, to begin the thought process of 
graduating from the program and eventually not having to rely 
on Federal dollars.
    The Department is concerned with a new provision in section 
9 of S. 2543 that caps the heritage areas at a program of $15 
million a year. The administration did not propose a cap on the 
program because we believe it is more appropriate to cap the 
amount of appropriations each specific area is authorized to 
receive, and to limit the authorized period for appropriations.
    In conclusion, recent studies and our own experience have 
shown that the national heritage area approach links people and 
place, nature and culture, and the present with the past. The 
heritage areas capitalize on the unique local role communities 
play in preserving their heritage and telling their stories. S. 
2543 represents these principles, it assigns the appropriate 
roles and responsibilities to the key partners that must work 
together to make the program successful. We look forward to 
working with the committee to enact this very important piece 
of legislation.
    This concludes my remarks, Mr. Chairman. I'd be happy to 
answer any questions.
    [The prepared statement of Mr. Jones follows:]

 Prepared Statement of A. Durand Jones, Deputy Director, National Park 
                  Service, Department of the Interior

    Mr. Chairman and members of the subcommittee, it is my pleasure to 
appear before you today to testify on behalf of the Department of the 
Interior on S. 2543, the National Heritage Partnership Act. The 
Department strongly supports this bill, but has a few concerns about 
some of the provisions.
    The Department strongly supports legislation to establish a 
national heritage areas program. We would like to thank Chairman Thomas 
for his leadership over the last year in evaluating programmatic 
issues, identifying areas for legislative action, and introducing this 
bill based on the Administration's legislative proposal. This 
legislation was developed through a year-long process of Congressional 
oversight hearings, outside evaluations of the program (such as the 
March 2004 report by the General Accounting Office) and meetings among 
many of the groups interested in this issue.
    S. 2543 provides a much-needed framework for evaluating proposed 
national heritage area designations, offers guidelines for successful 
planning, clarifies the roles and responsibilities of all parties, and 
standardizes timeframes and funding for designated areas.
    The Department supports the national heritage areas approach to 
resource conservation through partnerships with communities. National 
heritage areas are intended to preserve nationally important natural, 
cultural, historic, and recreational resources through the creation of 
partnerships among Federal, State and local entities. National heritage 
areas are locally driven, initiated and managed by the people who live 
there and do not impose Federal zoning, land use controls nor do they 
require land acquisition. At its best, the collaborative approach of 
this program embodies Secretary of the Interior Gale Norton's ``Four 
Cs''--Communication, Consultation and Cooperation, all in the service 
of Conservation.
    S. 2543 supports a conservation strategy that recognizes that the 
people who live in a heritage area are uniquely qualified to preserve 
it. Being designated as a national heritage area can benefit visitors, 
community residents, existing National Park units located in the area, 
and other Federal lands by expanding the opportunity to interpret and 
protect resources over a larger landscape and by telling our shared 
national story.
    There are three provisions in S. 2543 that we wish to discuss in 
more detail and to offer suggestions for improvements.

                        CRITERIA FOR EVALUATION

    The standards for evaluating areas proposed for national 
designation are an essential element in establishing a national 
heritage areas program. While many places in this nation have special 
meaning to the people that live there, for many places designation as a 
State or local heritage area may be most appropriate. The National Park 
Service should be the lead partner only when the resources within a 
proposed heritage area are of national importance.
    The Department has some concerns about the use of the term 
``national significance'' and the definition provided in S. 2543. We 
recommend replacing the term ``national significance'' with the term 
``national importance'' to avoid confusion. The National Park Service 
specifically uses the term ``national significance'' in suitability and 
feasibility studies for new National Park System units. For this 
reason, the term ``national importance'' has been informally used by 
the National Park Service to describe the assessment of national 
heritage area resources.
    In addition, having a concise, appropriate, and practical 
definition for ``national significance'' or ``national importance'' is 
critical. We would suggest a revised definition as applied in practice 
to existing and proposed national heritage areas:

          The term ``National Importance'' is ascribed to a proposed 
        heritage area that illustrates major historic, cultural, 
        natural or social themes important to the history of the United 
        States and contains resources that are outstanding examples of 
        natural and cultural features that contribute to the theme, and 
        which possess a high degree of integrity, and are compatible 
        with continued community development, public enjoyment, and 
        use.

                     SUITABILITY/FEASIBILITY STUDY

    The Department believes that a study should be required for every 
proposed national heritage area and the study should be evaluated 
against legislatively established criteria before designation. S. 2543 
requires that such a study be prepared that demonstrates evidence of 
place-based resources that tell a nationally significant story, which 
has the support and involvement of the local community. This 
requirement has been field-tested and has been shown to increase the 
future success of the heritage area.
    The Department recommends a modification to the terminology used 
for studies. In order to be consistent with terminology used in past 
study and designation bills for national heritage areas, we recommend 
that the studies be called ``feasibility studies'' instead of 
``suitability/feasibility studies.'' This would also lessen any 
confusion with studies for new units of the National Park System that 
are called suitability and feasibility studies. We recommend that this 
change in terminology be used throughout the bill when referring to 
these studies.

                         FUNDING AND TIMEFRAMES

    When the first national heritage corridors were designated twenty 
years ago, a Federal commission provided management for the areas and 
the National Park Service provided most of the staff. The national 
heritage corridor or area was conceived as a less expensive alternative 
to the acquisition and operation costs of creating a new unit of the 
National Park System. These areas were originally authorized for five 
years with a five-year extension; over time, the corridors have been 
reauthorized for additional periods.
    For the 18 national heritage areas established after 1995, the 
National Park Service encouraged management with greater involvement by 
local entities as a more cost-effective use of Federal resources. Most 
of these newer areas are managed by a nonprofit entity or a State 
government and include a funding formula of not more than $10 million 
Federal dollars over a fifteen-year period. Our legislative proposal 
recommends codifying this approach and for the first time requires that 
a business plan be developed as part of the management planning for 
proposed new areas. This would ensure that from the beginning, national 
heritage areas are working towards and have an established plan for 
self-sufficiency. So far, no existing area has ``graduated'' from the 
program, even after 20 years and in some cases, and nearly $100 million 
invested overall. For this reason, we recognize the need to work with 
existing areas to assist them in a transition strategy as they reach 
the end of their funding authorization. As areas become self-
sufficient, available resources could be reallocated to newly 
designated areas or other priorities.
    The Department is concerned with the new provision in section 9 of 
S. 2543 that caps the heritage areas program at $15 million per year. 
The Administration did not propose a cap on the program because we 
believe it is more appropriate to cap the amount of appropriations each 
area is authorized to receive, and to limit the authorized period for 
appropriations. Currently, there are 15 new national heritage areas 
pending for designation in Congress. In addition, there are 24 
designated national heritage areas, many of which are authorized to 
receive appropriations of $1 million per year. However, we would expect 
to allocate funding among these areas within the levels of funds 
appropriated, which might require providing less than the individual 
authorized ceilings in some instances.

                               CONCLUSION

    Recent studies and our own experiences have shown that the national 
heritage area approach links people and place, nature and culture, and 
the present with the past. National heritage areas capitalize on the 
unique role local communities play in preserving their heritage and 
telling their stories. S. 2543 respects these principles. It assigns 
the appropriate roles and responsibilities to the key partners that 
must work together to make the program successful. It also recognizes 
the need to target our assistance to those areas where there is a 
national interest and where the local partners meet established 
criteria for success. We look forward to working with the committee to 
enact this important legislation.
    This concludes my prepared remarks and I will be pleased to answer 
any questions you or other members of the subcommittee may have.

    Senator Thomas. Okay, fine. Thank you very much.
    Mr. Hill.

         STATEMENT OF BARRY T. HILL, DIRECTOR, NATURAL 
      RESOURCES AND ENVIRONMENT, GENERAL ACCOUNTING OFFICE

    Mr. Hill. Thank you, Mr. Chairman and members of the 
subcommittee.
    I'm pleased to be here today to discuss provisions of S. 
2543, the National Heritage Partnership Act, which proposes, 
among other things, to establish a Federal program and criteria 
for designating national heritage areas. As you've mentioned, 
the Congress has established or designated 24 national heritage 
areas to recognize the value of their local traditions, 
history, and resources to the Nation's heritage. These areas, 
including public and private lands, receive funds and 
assistance through cooperative agreements with the National 
Park Service, which has no formal program for them. They also 
receive funds from other agencies and non-Federal sources, and 
are managed by local entities.
    Growing interest in new areas has raised concerns about 
rising Federal costs and the risks of limits on private land 
use. In this context, my testimony today addresses the effects 
that provisions of S. 2543 might have on issues we identified 
in our testimony last March before this subcommittee--
specifically, the processes for designating heritage areas, 
determining the amount of Federal funding for these areas, 
overseeing areas' activities and use of Federal funds, and 
determining the effects, if any, they have on private property 
rights.
    Let me start by discussing the process for designating 
heritage areas.
    S. 2543 would establish a systematic process for 
identifying and designating national heritage areas, addressing 
many of the concerns we identified in our March testimony. At 
that time, we reported that no such systematic process exists, 
noting that the Congress has, in some instances, designated 
heritage areas before the Park Service has fully evaluated 
them.
    The bill contains provisions that would require that a 
suitability study be completed and the Park Service determine 
that the area meets certain criteria before the Congress 
designates a heritage area. While the bill defines ``heritage 
areas'' more specifically in terms of their national 
significance, the criteria outlined in S. 2543 will benefit 
from implementing guidance that the Park Service has recently 
developed to guide the application of these criteria.
    S. 2543 also limits the amount of Federal funds that can be 
provided to heritage areas through the Park Service's budget. 
In March, we testified that, from fiscal years 1997 through 
2002, about half of heritage areas' funding came from the 
Federal Government. Specifically for 22 of the 24 areas where 
data were available, $156 million of the areas' $310 million in 
total funding came from the Federal Government. Of this, over 
$50 million came from the Park Service funds dedicated for this 
purpose. The bill would restrict annual dedicated Park Service 
funding for heritage areas to $15 million, with individual 
areas not receiving more than $1 million in a given fiscal year 
and $10 million over 15 years.
    Furthermore, S. 2543 includes a number of provisions to 
enhance the Park Service's ability to hold heritage areas 
accountable for their use of Federal funds. In this regard, the 
bill establishes a program that would provide the Park Service 
with the direction and funding needed to manage the agencies 
and the heritage areas' activities, establishes a schedule and 
criteria for reviewing and approving heritage areas' management 
plans, identifies criteria for use in reviewing area plans, 
requires that the plans include information on, among other 
things, performance goals and the roles and functions of 
partners, and requires the areas to submit an annual report 
specifying, among other things, performance goals and 
accomplishments, expenses and income, and amounts and sources 
of funds. We believe these provisions provide a sound 
foundation for establishing accountability in this program. I 
will shortly mention, however, two amendments to the bill that 
we believe would further enhance the oversight and 
accountability mechanisms in this program.
    Finally, S. 2543 also includes provisions that address some 
of the concerns we previously identified with regard to 
heritage areas' potential restrictions on property-owners' 
rights and land use. For example, the bill allows property 
owners to refrain from participating in any planned project or 
activity within the heritage area. Furthermore, the bill does 
not require any owner to permit public access to property, and 
does not alter any existing land-use regulation, approved land-
use plan, or other regulatory authority.
    In conclusion, we believe there are a number of provisions 
in S. 2543 that would represent positive steps toward 
addressing the concerns we raise in our March testimony; in 
particular, with regard to the need for a more systematic 
approach for establishing heritage areas, and greater 
accountability. However, to ensure greater accountability for 
use of Federal funds, the Congress may wish to consider 
amending S. 2543 by adding provisions directing the Secretary 
to review heritage areas' annual financial reports to ensure 
the agency has a full accounting of heritage area funds from 
all Federal sources, and to develop results-oriented 
performance goals and measures for the agency's own heritage 
area activities.
    Mr. Chairman, this concludes my statement. I'd be happy to 
answer any questions that you or members of the subcommittee 
may have.
    [The prepared statement of Mr. Hill follows:]

 Prepared Statement of Barry T. Hill, Director, Natural Resources and 
                 Environment, General Accounting Office

                             WHAT GAO FOUND

    Provisions of S. 2543 would establish a systematic process for 
identifying and designating national heritage areas, addressing many of 
the concerns identified in GAO's March 2004 testimony. At that time, 
GAO reported that no such systematic process exists, noting that the 
Congress has, in some instances, designated heritage areas before the 
Park Service has fully evaluated them. S. 2543 contains provisions that 
would require that a suitability study be completed and the Park 
Service determine the area meets certain criteria before the Congress 
designates a heritage area While the bill defines heritage areas more 
specifically in terms of their national significance, the criteria 
outlined in S. 2543 will benefit from guidance that the Park Service 
has recently developed to guide the application of the criteria. This 
guidance will improve the designation process.
    Provisions of S. 2543 would limit the amount of federal funds that 
can be provided to heritage areas through the Park Service's budget. In 
March 2004, GAO testified that from fiscal years 1997 through 2002 
about half of heritage areas' funding came from the federal government. 
Specifically, for 22 of the 24 heritage areas where data were 
available, $156 million of the areas' $310 million in total funding 
came from the federal government. Of this, over $50 million came from 
Park Service funds dedicated for this purpose, $44 million from other 
Park Service programs, and about $61 million from 11 other federal 
sources. S. 2543 would restrict annual dedicated Park Service funding 
for heritage areas to $15 million. Individual areas may not receive 
more than $1 million in a given fiscal year and $10 million over 15 
years.
    Furthermore, S. 2543 includes provisions that could enhance the 
Park Service's ability to hold heritage areas accountable for their use 
of federal funds. In this regard, S. 2543 (1) establishes a program 
that would provide the Park Service with the direction and funding 
needed to manage the agency's and the heritage areas' activities; (2) 
establishes a schedule and criteria for reviewing and approving 
heritage areas' management plans; (3) identifies criteria for use in 
reviewing areas' plans; (4) requires that the plans include information 
on, among other things, performance goals and the roles and functions 
of partners; and (5) requires areas to submit annual reports 
specifying, among other things, performance goals and accomplishments, 
expenses and income, and amounts and sources of funds. GAO has 
identified potential amendments to S. 2543 that would further enhance 
areas' accountability.
    S. 2543 includes provisions that address some of the concerns GAO 
identified in March with regard to heritage areas' potential 
restrictions on property owners' rights and land use. For example, S. 
2543 allows property owners to refrain from participating in any 
planned project or activity within the heritage area. Furthermore, the 
bill does not require any owner to permit public access to property and 
does not alter any existing land use regulation, approved land use 
plan, or other regulatory authority.
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss provisions of S. 2543, the National Heritage 
Partnership Act, which proposes, among other things, to establish a 
federal program and criteria for designating national heritage areas. 
Over the past two decades, the Congress has established, or 
``designated,'' 24 national heritage areas and provided them with 
millions of dollars in financial assistance through the National Park 
Service. Furthermore, the number of bills introduced to study or 
designate new areas has grown considerably in recent years. In the 
108th Congress alone, as of early March 2004, over 30 bills had been 
introduced to either study or designate new areas. This growing 
interest in creating new heritage areas has raised concerns that their 
numbers may expand rapidly and significantly increase the amount of 
federal funds supporting them. In addition, private property rights 
advocates are concerned that heritage area designations could increase 
the risk that federal controls or other limits will be placed on 
private land use.
    Currently, heritage areas receive funding through the National Park 
Service's budget, although the agency has no formal heritage area 
program. The Park Service provides technical assistance to the areas 
through cooperative agreements, and the Congress appropriates to the 
agency limited funds for these activities.\1\ Funds provided to 
heritage areas are considered to be ``seed'' money to assist them in 
becoming sufficiently established to develop partnerships with state 
and local governments, businesses, and other nonfederal organizations 
as their principal funding sources. Heritage areas also receive funds 
from other federal agencies through a variety of programs, primarily 
the Department of Transportation for road and infrastructure 
improvements. On March 30, 2004, my testimony before this Subcommittee 
identified a number of issues that need to be addressed to improve the 
effectiveness of the heritage area initiative.\2\
---------------------------------------------------------------------------
    \1\ Although no heritage area program exists within the Park 
Service, the Congress has provided the Park Service an annual 
appropriation for administering its heritage area activities. The 
agency has allocated these amounts to fund a national coordinator 
position in the Park Service's headquarters, which directs and monitors 
the agency's heritage area activities.
    \2\ U.S. General Accounting Office, National Park Service: A More 
Systematic Process for Establishing National Heritage Areas and Actions 
to Improve Their Accountability Are Needed, GAO-04-593T, (Washington, 
D.C.: March 30, 2004).
---------------------------------------------------------------------------
    Through several provisions of S. 2543, the Congress is now 
considering whether it should establish a permanent program that would 
provide direction and funding for the Park Service's heritage area 
activities. Central to the debate is the absence of a systematic 
process and specific criteria for identifying and designating national 
heritage areas that would ensure that only the most qualified sites 
become heritage areas and the implications for the federal budget. In 
this regard, my testimony today focuses on how S. 2543's provisions may 
affect the process for (1) designating heritage areas, (2) determining 
the amount of federal funding to these areas, (3) overseeing areas' 
activities and use of federal funds, and (4) determining the effects, 
if any, they have on private property rights.
    My testimony today is based on the work conducted for our March 
testimony, which was performed in accordance with generally accepted 
government auditing standards.
    In summary:

  <bullet> S. 2543 contains provisions that would establish a 
        systematic process for determining the suitability of proposed 
        sites as national heritage areas and for designating those 
        areas found to be qualified. In our March 2004 testimony, we 
        stated that no such systematic process currently exists. In 
        this regard, we noted that, while the Congress generally has 
        made designation decisions with the advice of the Park Service, 
        it has, in some instances, designated heritage areas before the 
        agency has fully evaluated them. S. 2543, however, would 
        require that a suitability/feasibility study be completed and 
        that the Secretary determine the area meets certain criteria 
        before the Congress designates a heritage area. While the bill 
        defines heritage areas more specifically in terms of their 
        national significance, the criteria outlined in S. 2543 for 
        determining an area's qualifications as a heritage area are 
        similar to those currently used by the Park Service and would 
        benefit from supplementary implementing guidance. The Park 
        Service has recently developed guidance for applying its 
        criteria, which will supplement the criteria identified in S. 
        2543 and improve the process for identifying and designating 
        heritage areas.
  <bullet> Provisions of S. 2543 would limit the amount of federal 
        funds that can be provided to national heritage areas through 
        the National Park Service's budget. In our March 2004 
        testimony, we stated that from fiscal years 1997 through 2002 
        about half of heritage areas' funding came from the federal 
        government. According to data from 22 of the 24 heritage areas, 
        the areas received about $310 million in total funding. Of this 
        total, about $154 million came from state and local governments 
        and private sources and another $156 million came from the 
        federal government. Over $50 million was dedicated heritage 
        area funds provided through the Park Service, with another $44 
        million coming from other Park Service programs and about $61 
        million from 11 other federal sources. S. 2543 would restrict 
        the funding for heritage areas that is allocated through the 
        Park Service's budget to $15 million for each fiscal year. Of 
        this amount, an individual area could receive not more than $1 
        million in a given fiscal year and not more than $10 million 
        over 15 years. While this provision would restrict the amount 
        of federal funds passing from the Park Service--the largest 
        provider of federal funds--to the heritage areas, these areas 
        can obtain funding from other federal agencies as well.
  <bullet> S. 2543 includes a number of provisions that could enhance 
        the Park Service's ability to hold national heritage areas 
        accountable for their use of federal funds. In March, we stated 
        that the agency had not always reviewed areas' financial audit 
        reports, developed consistent standards for reviewing areas' 
        management plans, and developed results-oriented goals and 
        measures for the agency's heritage area activities, or required 
        the areas to adopt a similar approach. Park Service officials 
        said that the agency has not taken these actions because, 
        without a program, it lacks adequate direction and funding. In 
        this regard, provisions of S. 2543 (1) establish a program that 
        would provide the Park Service with the direction and funding 
        agency officials believe they need to more effectively manage 
        their own and the heritage areas' activities; (2) establish a 
        schedule and criteria for reviewing and approving or 
        disapproving heritage areas' management plans; (3) identify 
        criteria for determining whether to approve an area's plan; (4) 
        require that the plans include information on, among other 
        things, performance goals, the roles and functions of partners, 
        and specific commitments by the partners to accomplish the 
        activities outlined in the plan; and (5) require each area to 
        submit an annual report specifying, among other things, 
        performance goals and accomplishments, expenses and income, 
        amounts and sources of matching funds and leveraged federal 
        funds, and grants made to any other entity. The Congress may 
        wish to consider specific amendments to S. 2543 that would 
        further enhance the Park Service's ability to hold areas 
        accountable.
  <bullet> S. 2543 includes provisions that address some of the 
        concerns we identified in March with regard to potential 
        restrictions that the national heritage areas may place on 
        property owners' rights and land use. Among other assurances, 
        S. 2543 provides property owners the right to refrain from 
        participating in any planned project or activity conducted 
        within the national heritage area. Furthermore, it does not 
        require any property owner to permit public access or modify 
        public access under any other federal, state, or local law or 
        alter any adopted land use regulation, approved land use plan, 
        or other regulatory authority of any federal, state, or local 
        authority.

    We believe that several of the provisions of S. 2543 would 
represent positive steps towards addressing the concerns we raised in 
March, in particular with regard to the need for a more systematic 
approach for establishing heritage areas and greater accountability.

                               BACKGROUND

    To date, the Congress has designated 24 national heritage areas, 
primarily in the eastern half of the country. Generally, national 
heritage areas focus on local efforts to preserve and interpret the 
role that certain sites, events, and resources have played in local 
history and their significance in the broader national context. 
Heritage areas share many similarities--such as recreational resources 
and historic sites--with national parks and other park system units but 
lack the stature and national significance to qualify them as these 
units.
    The process of becoming a national heritage area usually begins 
when local residents, businesses, and governments ask the Park Service, 
within the Department of the Interior, or the Congress for help in 
preserving their local heritage and resources. In response, although 
the Park Service currently has no program governing these activities, 
the agency provides technical assistance, such as conducting or 
reviewing studies to determine an area's eligibility for heritage area 
status. The Congress then may designate the site as a national heritage 
area and set up a management entity for it. This entity could be a 
state or local governmental agency, an independent federal commission, 
or a private nonprofit corporation. Usually within 3 years of 
designation, the area is required to develop a management plan, which 
is to detail, among other things, the area's goals and its plans for 
achieving those goals. The Park Service then reviews these plans, which 
must be approved by the Secretary of the Interior.
    After the Congress designates a heritage area, the Park Service 
enters into a cooperative agreement with the area's management entity 
to assist the local community in organizing and planning the area. Each 
area can receive funding--generally limited to not more than $1 million 
a year for 10 or 15 years--through the Park Service's budget. The 
agency allocates the funds to the area through the cooperative 
agreement.

   S. 2543 WOULD ESTABLISH A SYSTEMATIC PROCESS FOR IDENTIFYING AND 
              DESIGNATING PROPOSED NATIONAL HERITAGE AREAS

    As proposed, S. 2543 would establish a systematic process for 
determining the suitability of proposed sites as national heritage 
areas and for designating those areas found to be qualified. In our 
March 2004 testimony, we stated that no systematic process exists for 
identifying qualified candidate sites and designating them as national 
heritage areas. We noted that, while the Congress generally has made 
designation decisions with the advice of the Park Service, it has, in 
some instances, designated heritage areas before the agency has fully 
evaluated them. Specifically, the Congress designated 10 of the 24 
existing heritage areas without a thorough Park Service review of their 
qualifications and, in 6 of the 10 cases, the agency had recommended 
deferring action. S. 2543, however, would create a more systematic 
process that would make the Congress' designation of a heritage area 
contingent on the prior completion of a suitability/feasibility study 
and the Secretary's determination that the area meets certain criteria. 
In addition, under S. 2543, the Secretary could recommend against 
designation of a proposed heritage area based on the potential 
budgetary impact of the designation or other factors.
    Provisions in S. 2543 identify a number of criteria for the 
Secretary to use in determining a site's suitability and feasibility as 
a national heritage area, including its national significance to the 
nation's heritage and whether it provides outstanding recreational or 
educational opportunities. S. 2543 defines a heritage area as an area 
designated by the Congress that is nationally significant to the 
heritage of the United States and meets the other criteria specified in 
the bill. Further, S. 2543 defines national significance as possessing 
unique natural, historical, and other resources of exceptional value or 
quality and a high degree of integrity of location, setting, or 
association in illustrating or interpreting the heritage of the United 
States. Despite these very specific definitions, however, the criteria 
outlined in S. 2543 for determining an area's suitability are very 
similar to those currently used by the Park Service. Our March 2004 
testimony pointed out that these criteria are not specific enough to 
determine areas' suitability. For example, one criterion states that a 
proposed area should reflect ``traditions, customs, beliefs, and folk 
life that are a valuable part of the national story.'' These criteria 
are open to interpretation and, using them, the agency has eliminated 
few sites as prospective heritage areas. As we stated in March, 
officials in the Park Service's Northeast region, for example, believe 
the criteria are inadequate for screening purposes. The Park Service's 
heritage area national coordinator believes, however, that the criteria 
are valuable but that the regions need additional guidance to apply 
them more consistently. The Park Service has recently developed 
guidance for applying these criteria, which will help to clarify how 
both the existing criteria and the criteria proposed in S. 2543 could 
be applied to better determine the suitability of a prospective 
heritage area.

PROVISIONS IN S. 2543 WOULD LIMIT THE AMOUNT OF FEDERAL FUNDS DEDICATED 
                       TO NATIONAL HERITAGE AREAS

    S. 2543 would impose some limits on the amount of federal funds 
that can be provided to national heritage areas through the National 
Park Service's budget. In our March 2004 testimony, we stated that from 
fiscal years 1997 through 2002 about half of heritage areas' funding 
came from the federal government. According to data from 22 of the 24 
heritage areas, the areas received about $310 million in total funding. 
Of this total, about $154 million came from state and local governments 
and private sources and another $156 million came from the federal 
government. Over $50 million was dedicated heritage area funds provided 
through the Park Service, with another $44 million coming from other 
Park Service programs and about $61 million from 11 other federal 
sources. We also pointed out that the federal government's total 
funding to these heritage areas increased from about $14 million in 
fiscal year 1997 to about $28 million in fiscal year 2002, peaking at 
over $34 million in fiscal year 2000. Table 1 shows the areas' funding 
sources from fiscal years 1997 through 2002.
    S. 2543 restricts the funding for heritage areas that is allocated 
through the Park Service's budget to $15 million for each fiscal year. 
Of this amount, not more than $1 million may be provided to an 
individual area in a given fiscal year and not more than $10 million 
over 15 years. For any fiscal year, the costs for oversight and 
administrative purposes cannot exceed more than 5 percent of the total 
funds. While this provision restricts the amount of federal funds 
passing from the Park Service--the largest provider of federal funds--
to the heritage areas, these areas can obtain funding from other 
federal agencies as well.
    In March, we also pointed out that, generally, each area's 
designating legislation imposes sunset provisions to limit the amount 
of federal funds provided to each heritage area. However, since 1984, 
five areas that reached their sunset dates had their funding extended. 
S. 2543 establishes a fixed time frame after which no additional 
funding, except for technical assistance and administrative oversight, 
will be provided. Specifically, it states that the Secretary of the 
Interior can no longer provide financial assistance after 15 years from 
the date that the local coordinating, or management, entity first 
received assistance.

 S. 2543 INCLUDES A NUMBER OF PROVISIONS TO ENHANCE THE PARK SERVICE'S 
 ABILITY TO HOLD NATIONAL HERITAGE AREAS ACCOUNTABLE FOR THEIR USE OF 
                             FEDERAL FUNDS

    S. 2543 includes a number of provisions that could enhance the Park 
Service's ability to hold national heritage areas accountable for their 
use of federal funds. In March, we stated that the Park Service 
oversees heritage areas' activities by monitoring their implementation 
of the terms set forth in cooperative agreements. These terms, however, 
did not include several key management controls. That is, the agency 
had not (1) always reviewed areas' financial audit reports, (2) 
developed consistent standards for reviewing areas' management plans, 
and (3) developed results-oriented goals and measures for the agency's 
heritage area activities, or required the areas to adopt a similar 
approach. Park Service officials said that the agency has not taken 
these actions because, without a program, it lacks adequate direction 
and funding. We recommended that, in the absence of a formal heritage 
area program within the Park Service, the Secretary of the Interior 
direct the Park Service to develop well-defined, consistent standards 
and processes for regional staff to use in reviewing and approving 
heritage areas' management plans; require regional heritage area 
managers to regularly and consistently review heritage areas' annual 
financial reports to ensure that the agency has a full accounting of 
their use of funds from all federal sources; develop results-oriented 
performance goals and measures for the agency's heritage area 
activities, and require, in the cooperative agreements, that heritage 
areas adopt such a results-oriented management approach as well.

 TABLE 1.--NATIONAL HERITAGE AREA FUNDING FROM ALL SOURCES, FISCAL YEARS
                               1997-2002.
------------------------------------------------------------------------
                  Source                        Amount       Percentage
------------------------------------------------------------------------
    Total Park Service funds..............     $95,393,506        30.8
                                           -----------------------------
Dedicated heritage area funds\1\..........      50,922,562        16.5
Other Park Service support funds\2\.......      44,470,944        14.3
                                           -----------------------------
    Total other federal funds.............      60,545,816        19.5
                                           -----------------------------
Department of Transportation..............      55,852,269        18.0
Department of Education...................       2,000,000         0.6
Department of Agriculture.................         547,009         0.2
Department of Housing and Urban                    420,183         0.1
 Development..............................
Environmental Protection Agency...........         400,000         0.1
Army Corps of Engineers...................         266,000         0.1
Department of Commerce....................          96,555         0.0
National Railroad Passenger Corporation...          23,800         0.0
National Endowment for the Arts...........           5,000         0.0
Federal earmarks and awards\3\............         935,000         0.3
                                           -----------------------------
    Total nonfederal funds................     154,078,203        49.7
                                           -----------------------------
State governments.........................      61,404,323        19.8
Local governments.........................      46,612,624        15.0
Nonprofit organizations...................       7,255,416         2.3
Private foundations.......................      14,515,996         4.7
Corporate sponsors........................       2,126,870         0.7
Other nonfederal funding sources..........      22,163,473         7.2
                                           -----------------------------
    Total.................................    $310,017,525       100.0
                                           =============================
------------------------------------------------------------------------
Source: GAO analysis of data obtained from 22 of the 24 heritage areas.
\1\ These funds were provided through the Park Service's Heritage
  Partnership Program and Statutory and Contractual Aid budget line
  items. The Heritage Partnership Program promotes the conservation of
  natural, historic, scenic, and cultural resources. Statutory and
  Contractual Aid provides financial assistance in the planning,
  development, or operation of natural, historical, cultural, or
  recreation areas that are not managed by the Park Service.
\2\ These are funds from other Park Service budget line items--including
  the Land and Water Conservation Fund; Operation of the National Park
  Service, and the Construction Fund--that are not typically reported as
  part of heritage area funding, but include funding for specific
  projects undertake by heritage areas.
\3\ These funds earmarked for Federal Government Pass-Through Awards
  ($610,000) and Hugh Moore Historical Park & Museums, Inc. ($325,000).

    S. 2543 takes several steps that will enhance accountability. In 
this regard, S. 2543 establishes a formal program for national heritage 
areas to be administered by the Secretary of the Interior. By 
establishing this program, the bill would provide the Park Service with 
the direction and funding that agency officials believe they need to 
impose management controls on their own and heritage areas' activities. 
Furthermore, S. 2543 includes a number of provisions that address the 
concerns we raised in March. First, the bill establishes a schedule and 
criteria for reviewing and approving or disapproving heritage areas' 
management plans. The Secretary must approve or disapprove the 
management plan within 180 days of receiving it. If disapproved, the 
Secretary must advise the local coordinating entity in writing of the 
reason for disapproval and may make recommendations for revision. After 
receiving a revised management plan, the Secretary must approve or 
disapprove the revised plan within 180 days. In addition, the bill 
identifies criteria that the Secretary is to use in determining whether 
to approve an area's plan. This is a positive step towards establishing 
the well-defined, consistent standards and processes for reviewing and 
approving areas' management plans that we recommended in March.
    S. 2543 also requires that the management plans include information 
on, among others, performance goals, the roles and functions of 
partners, and specific commitments by the partners to accomplish the 
activities outlined in the management plan. Furthermore, to ensure 
better accountability, the local coordinating entity must submit an 
annual report to the Secretary for each fiscal year for which the 
entity receives federal funds. This report must specify, among other 
things, the local coordinating entity's performance goals and 
accomplishments, expenses and income, amount and sources of matching 
funds, amounts and sources of leveraged federal funds, and grants made 
to any other entity during the fiscal year.
    While provisions contained in S. 2543 address some of the issues we 
raised in our March testimony, they do not require that the Park 
Service consistently review areas' financial audit reports or develop 
results-oriented goals and measures for the agency's heritage area 
activities as we recommended in March. We continue to believe that 
these are important management controls that are necessary to ensure 
effective oversight and accountability.

 S. 2543 PROVIDES SOME MEASURES FOR ENSURING THAT OWNERS' USE OF THEIR 
   PROPERTY IS NOT RESTRICTED BY THE ESTABLISHMENT OF HERITAGE AREAS

    S. 2543 includes provisions to ensure that property owners' rights 
and land use are not restricted by the establishment of national 
heritage areas. In our March testimony, we stated that national 
heritage areas do not appear to have affected property owners' rights. 
In fact, the designating legislation of 13 areas and the management 
plans of at least 6 provide assurances that such rights will be 
protected. However, property rights advocates are concerned about the 
effects of provisions in some management plans that encourage local 
governments to implement land use policies that are consistent with the 
heritage areas' plans. Some advocates are concerned that these 
provisions may allow the heritage areas to indirectly influence zoning 
and land use planning in ways that could restrict owners' use of their 
property.
    S. 2543 provides property owners the right to refrain from 
participating in any planned project or activity conducted within the 
national heritage area. Furthermore, it does not require any property 
owner to permit public access, nor does it modify public access under 
any other federal, state, or local law. It also does not alter any 
adopted land use regulation, approved land use plan, or other 
regulatory authority of any federal, state, or local authority.

                              CONCLUSIONS

    The growing interest in creating new heritage areas has raised 
concerns that their numbers may expand rapidly and significantly 
increase the amount of federal funds supporting them. A significant 
increase in new areas would put increasing pressure on the Park 
Service's resources. Therefore, it is important to ensure that only 
those sites that are most qualified are designated as heritage areas. 
However, as we noted in March, no systematic process for designating 
these areas exists, and the Park Service does not have well-defined 
criteria for assessing sites' qualifications or provide effective 
oversight of the areas' use of federal funds and adherence to their 
management plans. As a result, the Congress and the public cannot be 
assured that future sites will have the necessary resources and local 
support needed to be viable or that federal funds supporting them will 
be well spent. Park Service officials pointed to the absence of a 
formal program as a significant obstacle to effective management of the 
agency's heritage area efforts and oversight of the areas' activities. 
As a result, the Park Service is constrained in its ability to 
determine both the agency's and areas' accomplishments, whether the 
agency's resources are being employed efficiently and effectively, and 
if federal funds could be better utilized to accomplish its goals.
    Several of the provisions in S. 2543 represent positive steps 
towards addressing the concerns we raised in March. In particular, by 
establishing a formal program, the bill would remove the obstacle to 
effective management and oversight identified by agency officials. 
Furthermore, by establishing a more systematic process for designating 
heritage areas, S. 2543's provisions can help to ensure that only the 
most qualified sites become heritage areas. In addition, by placing a 
$15 million per year cap on funding to the heritage areas through the 
Park Service, the bill limits the federal government's funding 
commitment to these areas. Finally, provisions in S. 2543 would enhance 
the Park Service's ability to oversee and hold areas accountable for 
their use of federal funds by establishing criteria for reviewing and 
approving areas' management plans and by requiring heritage areas to 
annually report on performance goals and accomplishments.

                MATTERS FOR CONGRESSIONAL CONSIDERATION

    To ensure greater accountability for the use of federal funds, the 
Congress may wish to consider amending S. 2543 by adding provisions 
directing the Secretary to (1) review heritage areas' annual financial 
reports to ensure that the agency has a full accounting of heritage 
area funds from all federal sources, and (2) develop results-oriented 
performance goals and measures for the Park Service's overall heritage 
area program.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or other Members of the 
Subcommittee may have.

    Senator Thomas. Okay, thank you. Thank you both. I 
appreciate that very much. Certainly, this draft has been 
predicated, to a large extent, on the study that was done by 
GAO, as well as in consultation with the Park Service.
    So, Mr. Jones, you have some concern about the 
``significance,'' as opposed to ``important'' or using--
``importance'' doesn't seem very important, where 
``significance'' seems to me, sort of, defines the fact that it 
should be set aside because it is significant. Why do you think 
that's a problem?
    Mr. Jones. The exact words to be used, I think, are less 
important than our generic concern. the terms of ``suitability 
studies'' and ``determinations of national significance'' is a 
formal process that is currently in law, which leads to 
establishing units of the National Park System. Our concern is 
that we do not imply any confusion that these studies are 
studies for additions to the National Park System, when they 
are studies for heritage areas. And we thought it might be 
easier if slightly different phraseology were used.
    Senator Thomas. I see. I guess one of the basic reasons for 
this whole effort is that things become important in the 
community, whether it's economic development or whether it's to 
do something with the Main Street, and this and that. So, 
again, you define words a little differently, but I think what 
we're trying to do is say that it has to have national 
significance.
    Mr. Jones. I totally agree with you on that, because 
certainly areas that are of local interest or of interest to 
Statewide proceedings are clearly best managed by the States 
and the local governments, without a role for us. So there 
certainly needs to be a national level of--be it ``interest'' 
or ``importance'' or ``significance''--we're certainly willing 
to work with the committee as to what is the best terminology 
to use.
    Senator Thomas. I think one of the real issues before us, 
is, there are areas that have local significance that we hope 
are set aside, but they should be set aside by the local or the 
State, and we shouldn't have a program where local areas are 
set aside by Federal money.
    So I understand what you're saying.
    Mr. Jones. And we agree with you, Senator.
    Senator Thomas. Now, currently, heritage areas, does that 
designation disappear after awhile, or is it always--after the 
funding's over, is it continued to be a national heritage area?
    Mr. Jones. We believe it does, and we think the legislation 
should allow that to happen. But what changes is the role of 
the Federal Government in the area, because certainly a lot of 
entities and organizations interested in heritage areas are 
interested in the plaque and the name, be it for marketing, for 
tourism or for whatever interest they might have. And we don't 
see any problems with that. The main thing that we feel 
definitely should have a cap is the eventual termination of the 
Federal funding that supports an area, and that an area should 
graduate from the program and become self sufficient on their 
own and continue on their own.
    Senator Thomas. If it still is designated as a national 
heritage, then the Park Service would no longer have any input 
or oversight or involvement, is that correct?
    Mr. Jones. It would be greatly reduced involvement. To the 
extent that we are providing annual reports to the Congress, 
for example, or updates on the programs, we're assuming that as 
long as an area carries that title, there would be interest for 
us to continue to know what's going on there, but our role 
would be greatly diminished.
    Senator Thomas. I see.
    Mr. Hill, you suggested annual audits or at least some sort 
of oversight on spending. As we get more and more of these, is 
that likely to be something the Department would be able to do?
    Mr. Hill. Well, the current cap you have of $15 million on 
the program, with no more than 5 percent being spent on 
administrative expenses, that does put a limit on the extent of 
effort the Park Service could provide. So, yes, as you add more 
heritage areas to this program, it's going to start taxing and 
stressing already thin resources that the Park Service has to 
oversee.
    Senator Thomas. Yes.
    Mr. Hill. So that's why I do think you need to consider 
some type of controls over limiting the number or the size of 
this program.
    Senator Thomas. I agree with you. I think there ought to be 
some oversight on any sort of funding by the Federal Government 
and so on. I think it could possibly be made simpler than it 
sometimes is, just to sort of get an idea of what's happened.
    Mr. Hill. Well, the bill does provide some really nice 
mechanisms for reporting. The heritage areas do have to submit 
these annual reports as long as they're receiving Federal 
funds. That should make the Park Service's job a lot easier, 
because not only will they be getting a better handle on the 
funds that they're expending--as well as what other Federal 
agencies are also providing through the program--but it'll all 
be provided in one document that they can easily review.
    Senator Thomas. That's a good idea.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    As I mentioned in my opening statement, Mr. Jones, one of 
the general concerns with the heritage area program is rapid 
growth in the number of areas proposed for designation. As you 
noted in your testimony, there are already two dozen designated 
areas, with an additional 15 proposed for designation during 
this Congress. Based on the increasing interest in this 
program, I suspect that there will be many more areas that will 
be proposed for designation in the near future.
    If so many areas are potentially suitable for designation, 
my question is, How do we make sure that the heritage area 
program isn't overwhelmed by too many designations? In addition 
to determining the suitability of the proposed area, does it 
make sense to establish some sort of priority ranking?
    Mr. Jones. Well, I think the basic answer to your question 
is one of the reasons why this bill is before the committee, 
because this bill, we think, addressed a lot of the issues that 
you've just raised, because it does provide, we think, some 
consistency in approach in evaluation, and hopefully from that 
would come some information that would be useful to this 
committee, as well as our--as we develop our own 
recommendations as to what areas have the most merit for 
designation and consideration.
    The study process has been evolving over the last decade 
based on our experience in heritage areas, and what this bill 
is trying to do, I think, is bring that wealth of experience 
together into a unified approach looking to the future.
    Senator Akaka. Senator Thomas' bill would establish in law 
several requirements that must be met before an area could be 
designated as a national heritage area. It appears to me that 
many of the criteria, such as the requirement for a study and 
evidence of a significant local commitment to the proposed 
heritage area are consistent with requirements that have 
already been applied informally by this committee and by your 
agency in assessing previous heritage area proposals. If this 
bill is enacted, do you expect that any of the proposed areas 
that are now considered appropriate candidates for designation 
will no longer be eligible for designation, or will it slow the 
number of future proposals?
    Mr. Jones. Well, I'm not personally familiar with all of 
the areas that have been proposed that are pending before the 
committee, and it's also certainly not appropriate for me to 
prejudge what our position would be, without clear testimony, 
obviously. But I am aware that there are some of the areas that 
have been introduced, for example, that do not have a study 
that has existed. They call for just direct designation. And 
certainly, in the past, we have opposed those types of 
designations without a formal study, without the identification 
of a good local partner and its proven capability to assume 
their role in a heritage area. And I would be surprised if our 
position would change on that.
    So I think the answer is yes, that there are likely some 
areas that have been proposed that would not meet this 
criteria.
    Senator Akaka. Mr. Jones, this bill proposes an annual 
appropriations of--a limit of $15 million for the entire 
program, regardless of the number of heritage areas. You oppose 
this provision in your testimony, preferring to rely on the 
appropriations limitations applicable to each individual 
heritage area. If there isn't an overall funding ceiling for 
the heritage area program, how do you ensure that it doesn't 
become so large that it diverts significant funding resources 
away from other National Park Service priorities?
    Mr. Jones. A couple of answers to that. Our concern on the 
ceiling is that, at any given time, it's presumed that there 
will be a different number of heritage areas eligible for 
funding, and we think that having a $15 million cap on the 
program may, at some times, provide ample funding for all the 
active areas; at other times, may restrict the funding.
    On the question as to what extent it would impact other 
park operations, unfortunately my crystal ball does not allow 
me to speculate--that if funding for any one program is not 
there, that it would automatically be available for park 
operations. One could hope as much, but it's hard to predict 
what either OMB or the appropriations committees might decide 
to do. So I really don't have a specific answer for that 
question.
    Senator Akaka. Thank you very much for your response.
    Mr. Chairman, I don't have any further questions for this 
panel.
    Senator Thomas. Thank you very much, Senator.
    Now, the limitation is an interesting question that we need 
to deal with. I read in the paper almost daily that the parks 
are inadequately funded, and they aren't doing enough upkeep on 
the backlog, and all that sort of thing, and so it makes you 
wonder.
    Gentlemen, thank you very much. Appreciate. And we want to 
continue to work with you as we go forward.
    Now, our second panel, Mr. Dan Rice, Ohio and Erie Canal 
Coalition, Akron, Ohio; Mr. Craig Obey, vice president for 
government affairs, National Parks Conservation Association; 
and Mr. R.J. Smith, director, Center for Private Conservation, 
here in Washington.
    Welcome, gentlemen. We look forward to your points of view 
and appreciate your being here to share them with us.
    Mr. Rice, would you like to begin? As I have mentioned to 
the previous panel, your total comments will be put into the 
record, and if you want to summarize them in 5 minutes, why, 
that would be great.
    Thank you.

    STATEMENT OF DANIEL RICE, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, OHIO AND ERIE CANALWAY COALITION, AKRON, OH

    Mr. Rice. Thank you very much, Mr. Chairman.
    And, again, I'd like to thank you, Mr. Chairman and 
distinguished members of the committee, for inviting me here 
today to provide testimony regarding the National Heritage Area 
Partnership Act.
    I am here in my capacity as the president and CEO of the 
Ohio and Erie Canalway Coalition, working on the Ohio and Erie 
Canalway Project in Northeast Ohio, as well as the chairman of 
the Advocacy Committee for the Alliance of National Heritage 
Areas.
    First and foremost, I'd like to thank the committee, and 
you specifically, Mr. Chairman, for your legislation. This 
legislation represents a major improvement from the National 
Park Service legislation that was submitted about a month ago. 
And we believe that this legislation accurately reflects the 
issues and concerns of the Alliance of National Heritage Areas, 
and we appreciate you taking that into account in the 
development of this legislation.
    We also believe, Mr. Chairman, that there are a couple of 
areas of common ground we have agreement on; first and 
foremost, the issue of national significance. We believe that 
all national heritage areas should have national significance. 
Second, we also agree that national heritage areas should have 
a framework for regional collaboration and cooperation, which 
this legislation outlines. Third, and probably most 
importantly, this legislation also provides clear direction 
regarding the development of suitability and feasibility 
studies, as well as the management plans.
    With our proposed recommendations, we believe this 
legislation has the potential to create a successful national 
heritage area program that exports the National Park Service 
ethic of resource conservation to millions of Americans while 
leveraging significant amounts of private, local, State, and 
Federal resources, and truly creating a legacy for future 
generations.
    Specifically, I am respectfully requesting the following 
seven proposals:
    First, national heritage area designation must come after 
planning. Through a comprehensive planning process, working in 
partnership with our local, State, and Federal partners, the 
most appropriate framework and regional strategies for the 
conservation of these resources will be identified. Completing 
the entire planning process in advance provides Congress and 
the Secretary of the Interior with all the information possible 
regarding--in order to make a decision regarding potential 
Federal involvement.
    Second, national heritage area designation must come from 
Congress. This legislation basically outlines the fact that a 
national heritage area may meet all the requirements for 
national significance and designation; however, the Secretary 
of the Interior may veto the designation. We suggest that 
rather than creating a new process for the designation of 
national heritage areas that--simply use the same process for 
designation of units of the National Park System.
    Third, we believe that the review and approval of 
management plans needs to be much quicker. All the partners are 
involved in the planning process--local, private, State, and 
Federal. We believe that taking 180 days to review a plan, 
which is approximately 6 months, slows down the process and has 
the potential to limit the momentum of the development of a 
heritage area. We believe and respectfully request a review 
process of 90 days.
    Four, staffing for heritage areas. This legislation 
specifically outlines certain staff members for the development 
of a heritage area. We agree with some of the recommendations; 
however, we think it would be helpful if the wording was added 
``and other staff as deemed necessary,'' because as each 
national heritage area may have unique requirements for 
staffing, the legislation should provide language that permits 
the hiring of staff consistent in order to implement the 
management plan. It doesn't mean there's unlimited staffing, 
Mr. Chairman; however, we just want to make sure the management 
entity has the tools necessary to fulfill their management 
plan.
    Fifth, authorization of appropriations. We agree that there 
are issues regarding funding, and that that always is an issue; 
however, our concern is, if we establish a $15 million cap for 
the program, this, unfortunately, could develop a unfunded 
mandate for our local partners. They could basically get the 
national designation, and not be able to fulfill their 
obligations under the management plan. We recommend, 
respectfully, that Congress consider, each year, the collective 
funding needs of the national heritage areas.
    Sixth, national heritage areas must be able to be 
reauthorized. And, to be direct, Mr. Chairman, partnerships 
take a long time to develop. Congress should provide for 
itself, at the end of each national heritage area, when it 
comes up for reauthorization, to basically review the national 
heritage area in order to determine whether it's appropriate 
for the Federal partner to be involved in the future 
development and resource conservation in the heritage area.
    Seventh, and finally, the national heritage area should be 
made affiliated units of the National Park Service.
    In closing, Mr. Chairman, we really applaud you for all of 
your efforts in the development of this legislation. We really 
believe that it does accurately reflect our issues and 
concerns. If we can be of further assistance, we look forward 
to working with you on the development of this successful 
legislation.
    With your continued leadership, we have the opportunity to 
establish a national and international model for resource 
conservation that truly leverages significant amounts of local, 
private, and state resources, but, probably more importantly, 
creates a legacy for future generations.
    Mr. Chairman, I want to thank you for the opportunity to 
testify, and I am more than happy to answer any questions that 
either you or any of the other members of the committee may 
have.
    Thank you, sir.
    [The prepared statement of Mr. Rice follows:]

   Prepared Statement of Daniel M. Rice, President & Chief Executive 
Officer, Ohio & Erie Canalway Coalition, Ohio & Erie National Heritage 
 Canalway, Akron, OH, and Chairman of the Advocacy Committee, Alliance 
                       of National Heritage Areas

    Mr. Chairman and distinguished members of the Committee, my name is 
Daniel M. Rice. I am the President and Chief Executive Officer of the 
Ohio & Erie Canalway Coalition, a private non-profit regional 
organization working on the development of the Ohio & Erie National 
Heritage Canalway from Cleveland to New Philadelphia in northeast Ohio. 
I am also here today testifying in my capacity as Chairman of the 
Advocacy Committee with the Alliance of National Heritage Areas, an 
organization whose membership includes, among others, the 24 
congressionally designated NHAs. I appreciate the opportunity to appear 
before the Committee today to discuss the ``National Heritage 
Partnership Act'', the future of the National Heritage Area movement.
    On behalf of the Alliance of National Heritage Areas and its 
members, I want to thank the Committee and all of the National Park 
Service staff, who have worked over the past months to develop this 
proposed legislation. We believe that the ``National Heritage 
Partnership Act'' represents a major improvement from the draft offered 
by the National Park Service. The proposed legislation accurately 
reflects the concerns and issues of the Alliance of National Heritage 
Areas and we believe this legislation is on the right path.
    We share with the Committee the belief that a successful National 
Heritage Area program must include a test of national significance. If 
there is not a nationally significant theme or collection of resources, 
the heritage area should not be designated as a National Heritage Area. 
This proposed legislation also creates a framework for regional 
collaboration and cooperation among private, local, state and federal 
partners that is the cornerstone of the Heritage Development movement. 
Finally, this proposed legislation provides clear direction regarding 
the development of the Suitability/Feasibility studies and the 
Management Plan process. Through this study process, Heritage 
Initiatives will be able to define the most appropriate framework and 
regional strategies for the conservation, interpretation and 
development of their unique natural, historical and recreational 
resources.
    With our proposed recommendations, this legislation has the 
potential to create a successful National Heritage Area program that 
exports the National Park Service ethic of resource conservation to 
millions of Americans, leverage significant amounts of private, local, 
state and federal resources while creating a legacy for future 
generations.
    Specifically, I am respectfully requesting that this Committee and 
the Congress consider the following recommendations for a National 
Heritage Area program:

1. National Heritage Area designation must come after planning
    Recently, the process of designating NHAs has occurred in reverse, 
with the designation by Congress first, and then the necessary 
inventories, themes and other planning developed after. Placing 
designation in advance of the plan often will redirect most, if not all 
of the NPS appropriations to planning, instead of the investment in the 
resource conservation and development. Congress could designate 
heritage areas as ``planning areas'' first and provide a small amount 
of funding to help seed the planning process, then, when the 
feasibility and management plans were complete, Congress, with the 
completed plans and recommendations, would have a more thorough 
assessment of the proposed NHA.
    Through a comprehensive planning process, Heritage Initiatives will 
develop the most appropriate framework and regional strategies for the 
conservation, interpretation and development of the unique natural, 
historical and recreational resources. It may be determined that the 
most appropriate framework is through local designation, state 
designation, a Scenic Byway, or possibly no designation may be 
necessary. Completing the entire planning process prior to designation 
provides Congress and the National Park Service with all the 
information necessary to make a decision regarding potential federal 
involvement.

2. National Heritage Area designation must come from Congress
    Despite Congress's approval of a National Heritage Area 
designation, the Secretary of Interior would retain veto power over the 
congressional action by disapproving and National Heritage Area's 
proposed management plan, and subsequent amendments for correction/
modification--essentially keeping a National Heritage Area approved by 
Congress from going into operation. All final authority upon which 
areas would ultimately function as a National Heritage Area would rest 
in the hands of the Secretary, stripping Congress of its legislative 
responsibilities to designate.
    The Secretary of Interior should make a recommendation to Congress 
regarding the designation of a Heritage Area. The Secretary of Interior 
should not have veto power regarding the designation of Heritage Areas. 
That authority rests with the Congress of the United States.
    Finally, why not use the same process for the designation of units 
of the National Park System? The Secretary of the Interior reviews the 
studies and reports and makes a recommendation to Congress regarding 
designation as a unit of the National Park System. Why not use the same 
process for units of the National Park System and treat Heritage Areas 
in the same manner?

3. Review and Approval of Management Plans needs to be quicker
    Since all partners, private, local, state and federal 
organizations, are involved in the development of the Management Plan, 
all parties should be well informed about the contents of the 
Management Plan. Consequently, there is no reason why it should take 
180 days, or six months, to review and provide comment on a Management 
Plan. One of the key factors in the development of successful Heritage 
Areas is their availability to respond to issues in a timely manner.
    Since the Heritage Initiative cannot continue until the review and 
approval of the Management Plan, the regional initiative comes to a 
grinding halt due to the requirements of one of the partners. It is 
unreasonable to assume that one of the partners will dominate and 
exercise control over the regional project. In some cases, this 
approach will essentially discourage and eliminate local support for 
the Heritage Area. The Alliance of National Heritage Areas recommends a 
review and approval or disapproval process, and Amendment process of 90 
days to maintain the momentum of the Heritage Area.

4. Staffing for Heritage Areas
    National Heritage Areas are as different and unique as the regions 
of the country that they work within. This legislation that we are 
discussing today, makes a significant attempt at recognizing the levels 
and types of professional staff that might be necessary to successfully 
manage a National Heritage Area. The legislation, however, would be 
more helpful if the words, ``or other staff as deemed necessary'' were 
inserted in Section 6 (b) (3) under hire and compensate staff. While 
most National Heritage Areas may find it necessary to hire individuals 
with expertise in natural, historical, cultural, educational, scenic, 
recreational resource conservation, economic and community development 
and heritage planning, others might find need for promotion or 
marketing professionals, or development staff to help raise match 
money. Simply stated, each National Heritage Area may have unique 
requirements for staffing, and the legislation should provide language 
that permits the hiring of staff consistent with the implementation of 
the Management Plan.

5. Authorization of Appropriations
    I fully understand and acknowledge that Congress has very difficult 
budget considerations on an annual basis regarding the funding of many 
worthwhile programs. Considering the return on investment that National 
Heritage Areas have demonstrated, and as substantiated by the General 
Accounting Office and Congressional Research Service, it would seem to 
me that Congress would want to continue to fund programs that are able 
to take the federal funding and leverage significant amounts of 
private, local, and state investment. By proposing this legislation, 
Congress recognizes the accomplishments and importance of National 
Heritage Areas. However, at the same time, Congress is limiting the 
appropriations and the ability of the National Heritage Areas to 
fulfill their mission by arbitrarily capping the program. If the 
resource protection that is being achieved today under the National 
Heritage Area program were left solely to the National Park Service, 
there is no doubt that the cost of the program would be substantially 
larger.
    Raising funds for any project becomes more difficult if one of the 
key partner(s) withdraws or withholds funding. National Park Service 
funding provides a level of credibility to the National Heritage Area 
and assists in bringing other funding to the table. If our private, 
local and state partners took the same approach as the proposed $15 
million cap for the program, the National Heritage Area would struggle.
    Establishing a $15 million cap for the Heritage Area Program could 
become an unfunded mandate for the National Heritage Areas. Heritage 
Areas could achieve National designation with no assurances of 
participation and/or assistance from the National Park Service to 
fulfill the requirements of the Management Plan. Consequently, the 
National Heritage designation could become a burden on private, local, 
and state partners as well as their sole responsibility.
    Finally, the funding cap of $15 million dollars does not take into 
account inflationary issues, nor does it take into account future 
National Heritage Areas being designated by Congress. Under the 
proposed scenario, the average amount per National Heritage Area would 
be considerably less than the current appropriation for almost all of 
the existing National Heritage Areas. This funding cap would 
irreparably harm the National Heritage Areas and their programs.
    For these reasons, we respectfully recommend that the Authorization 
of Appropriations not be capped. We recommend that Congress consider 
each year the collective funding needs of National Heritage Areas. This 
will ensure a successful National Heritage Area program that exports 
the National Park Service ethic of resource conservation while managing 
the federal investment in a responsible manner.

6. NHAs must be able to be reauthorized
    Some proposals for creating an NHA program have suggested limiting 
the NHA to only 10 years of authorization and funding, after which the 
NPS appropriations will be cut off. The astounding ratio of match money 
to the NPS appropriations is, in part, a result of the federal 
government's willingness to invest in the heritage projects first. This 
seed money helps the NHA attract other investors, both public and 
private. If the other investors know the NPS funding will cease at the 
end of the authorization, it will be difficult, if not impossible, to 
convince the other public and private funders that the project is worth 
the investment. Additionally, if the NPS authorization ends, the 
designation of ``national'' will continue, creating confusion in the 
public's mind of the relationship of the heritage area to the National 
Park Service. Finally, NHAs projects could continue long after the 10-
year authorization. Congress should provide for itself the opportunity 
to review each NHAs work at the end of each authorization period for an 
NHA and then, with a new plan from the NHA for the next 10 years, make 
a determination if the NHA should be reauthorized to continue its work 
in the community.

7. NHAs should be made, at least, affiliated units of the NPS
    Currently NHAs exist as orphans within the National Park Service. 
Despite all of the technical assistance and support from the regional 
and Washington offices, . NHAs are left with inconsistent policies to 
follow, varying between regional offices. Under the current system, for 
example, NHAs cannot use the NPS Arrowhead without permission of the 
NPS, and release of the annual appropriations to each NHA is 
inconsistent. More importantly, budgeting for NHAs within the NPS is 
often an afterthought, as evidenced by the Fiscal Year 2005 budget that 
requests only $2.5 million overall for the 24 NHAs.

                               CONCLUSION

    In closing, Mr. Chairman, I believe that National Heritage Areas 
represent an innovative approach to resource conservation that works in 
partnership with our private, local, state and federal partners to 
conserve, interpret and develop our unique natural, historical and 
recreational resource. As I stated earlier, with our proposed 
recommendations this legislation offers the opportunity to create a 
successful National Heritage Area program that exports the National 
Park Service ethic of resource conservation to millions of Americans, 
while leveraging significant amounts of private, local, state and 
federal resources. If I can be of further assistance, I would like to 
extend an offer to work with you and the sub-committee staff on the 
development of this important piece of legislation.
    On behalf of the Alliance of National Heritage Areas, I want to 
express our thanks to you for your leadership and support regarding 
National Heritage Areas. With your leadership, we will create a model 
for resource conservation for 21St Century, just as President Roosevelt 
did with his creation of Yellowstone National Park in 1872. We greatly 
appreciate both your strong interest and support for National Heritage 
Areas and our efforts to celebrate our unique heritage while creating a 
legacy for future generations.
    Again, Mr. Chairman, I want to thank you for the opportunity to 
testify before your Committee, and I am happy to answer any questions 
that you, or other members of the Committee, might have.

    Senator Thomas. Okay, thank you.
    Mr. Smith.

  STATEMENT OF ROBERT J. SMITH, DIRECTOR, CENTER FOR PRIVATE 
                          CONSERVATION

    Mr. Smith. Mr. Chairman and members of the committee, thank 
you for inviting me here to testify on this bill.
    I'm R.J. Smith, with the Center for Private Conservation, 
an organization that documents the good efforts of private 
groups and private landowners to protect the environment, and 
with the Competitive Enterprise Institute, a private-property 
rights, limited-government think tank in Washington, as well as 
with former Senator Malcolm Wallop's Frontiers of Freedom 
Organization, another property-rights organization.
    Mr. Chairman, I sit here today with a heavy heart and a 
genuine feeling of sadness. It's a quarter of a century since 
Ronald Reagan was elected and sent a telegram--they still had 
them in those days--to the couple thousand people gathered from 
all over the Nation in Salt Lake City for the National 
Sagebrush Rebellion Conference. That was an effort by workers, 
landowners, State and national legislatures, even a Governor or 
two, to begin to take back the American land from the iron grip 
of the Federal Government and its land-control agencies. They 
wanted the Federal lands returned to the States, the counties, 
local communities, and the people. Everyone recognized what a 
lousy landlord and an incompetent land manager the Federal 
Government was. Reagan's message to the movement was--as the 
man himself, brief, direct, and to the point--he said, ``Count 
me in. I'm a sagebrush rebel, too.''
    He came to Washington from a State where the government 
already owned over half the land, and he had seen its 
mismanagement. He said, ``Enough. The government owns too much 
land, and can't take care of what it owns.'' He said, ``The 
government has to prove it can take care of what it already 
has.'' He heroically stopped the Federal land grab, he zero-
budgeted the Land and Water Conservation Fund and more land 
acquisition, and made an effort to begin to use the National 
Park Service's budget to take care of the parks, not to expand 
the parks.
    Even a quarter of a century ago, there was a mind-boggling, 
multi-billion-dollar backlog in deferred maintenance and 
repair, not only of the parks' infrastructure--decaying 
historic lodges, buildings, undriveable roads, unsafe bridges--
but even the parks' national resources and assets--unsafe 
drinking water, polluted streams, dying trees, unbalanced 
wildlife populations, et cetera--ending with the crown jewel of 
the Park Service, Yellowstone, burning down in the summer of 
1988, when Reagan then ordered the Park Service to terminate 
their misguided policy of natural regulation.
    And a decade ago, when Republicans gained control of both 
the House and the Senate and promised reform of environmental 
legislation used to achieve cost-free national land-use control 
rather than to protect the environment, and finally recognizing 
the significance of the Constitution's Fifth Amendment, ``Nor 
shall private property be taken for public use without just 
compensation,'' there was great hope amongst the property-
rights movement across the Nation.
    There was a promise to enact Federal legislation protecting 
private-property rights and mandating Federal agencies to pay 
compensation to landowners for outright takings, partial 
takings, and for the myth of regulatory takings, where the 
Government simply says, ``You can't use your land, but we don't 
have to pay you since we didn't take it from you.''
    There were hearings here, actually in December 1995, in 
this very room, to testify on a half dozen national heritage 
corridor bills, all of which were less onerous, less far-
reaching, and less dangerous, less expansive, and less 
expensive than we feel S. 2543 is, which will create an organic 
act for the national heritage area program to become an 
integral part, an entirely new bureau within the National Park 
Service.
    Interestingly, it appears that the Government, to some 
degree, took the concerns for property-rights advocates more 
seriously a decade ago, when there were at least three 
representatives from property-rights groups testifying here in 
this room. There was standing-room only with property-rights 
people. Perhaps rather than flipping Interior's poor buffalo 
from left to right to left, Interior should replace them with a 
Federal steamroller, flattening the rights of a free people.
    Mr. Chairman, the definition of a heritage area to come 
under the purview of the National Park Service, as any national 
significance to the heritage to the U.S. possessing, quote, 
``unique natural, historical, cultural, educational, scenic or 
recreational resources of exceptional value or quality,'' we 
believe is so vast, so all-encompassing, so expansive, so wide 
as to permit the designation of almost any plot of land in the 
Nation as a national heritage area. Civil War aficionados must 
be rubbing their hands in glee, because no piece of hallowed 
ground, from the cornfields of Gettysburg, Pennsylvania, to the 
heights of Georgia's Stone Mountain, from the walls of Fort 
Sumter, South Carolina, to the bluffs of Vicksburg on the 
Mississippi River, will be safe from possible designation as a 
new area controlled by the Park Service.
    Senator, we do not believe that the mere 23 lines of 
protections in this bill are adequate to protect private 
property rights, regardless of what is prohibited in them. We 
have seen this happen time after time after time. The 
prohibitions on land-use acquisition or of outright land 
acquisition with Federal money on the 24 existing heritage 
areas--in one area, that has already passed by. And in the 
Shenandoah National Heritage Area, they have acquired land with 
Federal moneys. Also, the National Coal Heritage Area is 
already calling for zoning to protect the areas. The Rivers of 
Steel Heritage Area is calling for its being turned into an 
actual national park.
    There are a couple of very important examples of what has 
happened in the past, where there have been the strictest 
regulations and restrictions put in by Congress. In 1972, the 
creation of the Buffalo National River in the Ozarks, it was 
prohibited expressly of any land acquisition or forcing 
landowners off the land. At that time, there were 1,108 
landowners out there. Today, there are only eight left. In 
1971, when the Cuyahoga National Recreation Area was created, 
there were, again, restrictions--no land-taking, no 
acquisition. They had to protect things with conservation 
easements. And, nevertheless, this Park Service program led to 
hundreds of homes and businesses being bulldozed and burned.
    Mr. Chairman, I think the only way to adequately protect 
private property rights if we want to save certain areas and 
set them aside is not to create this program, to privatize 
heritage areas now, and make all such programs totally private 
and totally voluntary. I think it's time for the land trusts, 
the chambers of commerce, the tourist bureaus, and so on, to 
step up and stop taking private property, and protect these 
areas the old-fashioned way, doing it by buying them.
    In conclusion, Mr. Chairman, I think one issue that we 
need--somebody needs to address in this country is, What is the 
vision of the future? What is the legacy we're going to leave 
for America and for our children? This is a free country built 
on the whole concept of private property rights; and without 
property rights, there are no other freedoms. The Government, 
at all levels--Federal, State, county, municipal--has been 
adding land, acquiring land, on a never-ending process. 
Probably over 44 percent of all the land surface in the United 
States is now owned by government at one level or another. 
There is no country on the face of the Earth now, with the 
U.S.S.R. and China gone, that has a more socialistic land-based 
system than the United States. I think we need a vision of the 
country that finds ways to tap the ingenuity and the voluntary 
associations of private landowners and private associations to 
protect areas privately.
    Thank you, Mr. Chairman, and I'll be happy to entertain any 
questions. And I have some additional comments I would like to 
submit with my testimony.
    [The prepared statement of Mr. Smith follows:]

 Prepared Statement of Robert J. Smith, Adjunct Environmental Scholar, 
  Competitive Enterprise Institute, and Director, Center for Private 
                              Conservation

    Thank you, Mr. Chairman and members of the committee, for the 
opportunity to present testimony to the National Parks Subcommittee of 
the Senate Committee on Energy and Natural Resources.
    My name is R.J. Smith. I am adjunct environmental scholar at the 
Competitive Enterprise Institute in Washington, D.C. CEI is a 
nonprofit, nonpartisan research and advocacy institute dedicated to the 
principles of private property, free enterprise and limited government. 
I am also director of the Center for Private Conservation, a nonprofit 
organization that documents and publicizes information on the history 
of private stewardship and conservation carried out by private 
landowners and private associations. And I am director of environmental 
studies at former U.S. Senator Malcolm Wallop's Frontiers of Freedom 
Foundation. I am also representing the concerns and interests of 
hundreds of property rights organizations, wise-use and multiple-use 
organizations, and small landowners who have been opposing such 
legislation for over a decade.
    S. 2543, the ``National Heritage Partnership Act' represents an 
unfortunate shift to an even worse bill that previous such legislation. 
It goes beyond the rather informal efforts to bring Federal recognition 
to the existing heritage areas and heritage corridors created by 
individual policy bills, to the creation of an organic act for the 
establishment of a National Heritage Area program within the Department 
of the Interior and specifically the National Park Service. In effect, 
this bill will create an entirely new Federal land management program.
    The National Park Service and Congress will be involved in creation 
of the ``local coordinating entity'', an organizing group which is 
often composed of elitists with a preservationist, environmentalist, 
conservationist agenda--which can be widely different form the day-to-
day concerns of many, if not most, of the people who actually live on 
the land.
    The National Park Service will provide assistance and funding the 
creation of the management plan for the proposed National Heritage 
Area. Once officially designated by the Secretary of Interior, the 
National Park Service will provide operating funding of up to $1 
million per year per National Heritage Area, with an upper maximum 
limit of $10 million dollars for any individual heritage area. Also, 
each local coordinating entity must obtain an equal amount of matching 
funds from non-federal sources.
    At every stage there will be Federal direction, Federal assistance 
and Federal funding. At a time of growing concern about out of control 
Federal spending and Federal deficits, the funding provided in S. 2543 
has been increased by 50 percent over earlier bills from $10 million 
per year to $15 million per year. Certainly a very disturbing sign.
    Mr. Chairman, what is the urgent need for a new national parks land 
management and spending program? For decades we have known about the 
deplorable fact that the National Park Service was far more interested 
in following a path of ever more land acquisition, and that caring for 
the lands they had was at best an afterthought. The administration of 
President Ronald Reagan and Interior Secretary James Watt attempted, 
mainly unsuccessfully, to stop additional land acquisition until the 
Government could demonstrate that it could be a good steward of the 
lands it already owned.
    Less than a year ago, President George Bush and Interior Secretary 
Gale Norton announced that at long last this administration would begin 
the long-overdue effort to eliminate the backlog of some $6 billion in 
deferred maintenance and protection of the parks and their resources 
and physical infrastructure. Now, unfortunately, with the ink hardly 
dry on those planning documents, we see an entire new National Park 
Service program about to be launched.
    What is especially disturbing about this bill is the combining of 
National Park Service direction, control and funding with the criteria 
for creation of a National Heritage Area.
    A National Heritage Area is an area ``nationally significant'' to 
the heritage of the U.S. and possesses ``unique natural, historical, 
cultural, educational, scenic, or recreational resources of exceptional 
value or quality.''
    This definition (in section 2, paragraph 3 and 4-a) is so broad, so 
wide-scale and so all-encompassing that it could include almost any 
area in the entire nation. Essentially, proponents of the National Park 
Service would be able to create new park controlled and directed lands 
almost anywhere in the country. One can only wonder what possible 
vision of America the supporters of such a program could have and where 
it fits within an earlier vision of America as a free society based 
upon private ownership of lands.
    Far more disturbing are the management plans, specifically sections 
5-a-1 and 5-a-2. The Interior Department and National Park Service 
guided and approved management plan must include ``comprehensive 
policies, goals, strategies, and recommendations . . . encouraging 
long-term resource protection, enhancement, interpretation, funding, 
management, and development of the National Heritage Area.''
    Further, the management plan must ``include a description of the 
actions and commitments that governments, private organizations, and 
citizens will take to protect, enhance, interpret, fund, manage, and 
develop the natural, historical, cultural, educational, scenic, and 
recreational resources of the National Heritage Area.''
    Those two paragraphs are nothing less than a mandate for Federal 
Government land-use control--period. This belies all suggestions, all 
wording elsewhere, purporting to provide protections for private 
property rights and private landowners.
    This is the appropriate place to note that former National Park 
Service employee and senior staff member of the House Resources 
Committee's Subcommittee on National Parks, Recreation and Public 
Lands, Steve Hodapp, who was a longtime avid promoter of National 
Heritage Area legislation, suggested such ``problems'' in his response 
to efforts by property rights advocates to build in protections for 
private property.
    A proposal suggested by many people was to provide ``opt-out'' 
language in the legislation to permit private landowners to make their 
intentions known that they did not want to be included with the 
heritage area and that they were opting out.
    As Steve Hodapp correctly noted, no one can opt out of a National 
Heritage Area. It is a physical and geographical impossibility. One is 
either inside the boundaries of a National Heritage Area or outside the 
boundaries. And if one is within the boundaries, and there is a 
management plan that prescribes, indeed mandates, programs and 
activities to protect, enhance, and manage natural and scenic values 
within the National Heritage Area--in one way or another private 
landowners are not going to be allowed to convert their cornfield to a 
pig farm or to paint their silo purple with yellow stripes.
    Mr. Chairman, if there are so many areas of scenic, historic and 
tourist importance, where is the justification for these areas to 
become part of the National Park Service? Whatever happened to the 
concept of private activities, voluntary association, the activities of 
nonprofit organizations? If it is so important to protect and obtain 
visitation for the ruins of historic Spanish churches along the lower 
Rio Grande valley, why must this be done by the Government? It would be 
far more consistent with the spirit of the Nation to have the local 
chamber of commerce erect a billboard on each end of the town, saying 
visit our quaint, scenic, historic, educational Spanish ruins while you 
are in town. It would be much cheaper. And it would be far less of a 
threat to private property rights.
    Mr. Chairman, in spite of assurances and wording to the contrary, 
we view this as nothing more than a continued attack on the very 
institution of private property, which is the underpinning of our 
unique free and prosperous society. All of our freedom is built upon 
the right of private property, and without private property right no 
other rights or freedoms are possible--they are merely illusory. Our 
founding fathers based our Nation and our freedom on the rights of 
life, liberty and property. Men as different in their thinking as 
Thomas Jefferson and Alexander Hamilton all agreed on the need for wide 
devolution of the Federal lands to ensure a Nation of free and 
productive men and women.
    Yet we now have a Nation where at least 42 percent of all the land 
is owned by government at one level or another, including Federal 
lands, State lands, county lands, local and community lands, and native 
trust lands. The totals for governmental land ownership are so large 
and complex that it is even difficult to obtain exact figures on the 
total amounts of land ownership by each level of government and the 
various agencies within those governments. One would think there would 
be some serious effort at inventorying what government already owns 
before setting out on a massive permanent program of endless additional 
governmental acquisitions of private lands.
    It is important to stop and consider the significance of the fact 
that government at all levels in America already owns over 42 percent 
of the Nation's land. This is a staggeringly high percentage of 
government ownership of land and resources in a free society, 
supposedly based upon the beliefs of the founding fathers that the 
cornerstone of all our freedom depends upon the widest possible 
distribution of private ownership of property. In a most interesting 
observation, the liberal economist John Kenneth Galbraith wrote: ``The 
public lands of the United States exceed the combined areas of Germany, 
France, Italy, Belgium, Holland, Switzerland, Denmark and Albania. When 
socialized ownership of land is concerned, only the U.S.S.R. and China 
can claim company with the United States.''
    Galbraith made those observations prior to the collapse of 
Communism, the breakup of the Soviet Union and the termination of the 
collective farms across China. Thus it would appear that, and is 
probably likely that, the United States of America probably has the 
most socialistic land ownership system in the world. One would hope 
that this would give the Republican-controlled Congress some second 
thoughts before they become engaged in an aggressive program to extend 
the tentacles of government, land management and land ownership still 
further and to destroy still more of the underlying private property 
that ensures the freedom of our people.
    It is way past time for some true vision on the part of our 
Government and its leaders. It is time to halt the never-ending trend 
to more and more government land-use control and land acquisition. If 
we are to maintain a free and prosperous society, it is well past time 
to first say: No more land acquisition and no more land-use control. We 
need someone to step forward with a true legacy with a national program 
and mandate of first no net loss of private land. And then someone to 
actually undertake a government land devolution, returning the land to 
the private ownership and stewardship envisioned by the founding 
fathers and rediscovering the unique tradition of Tocquevillian private 
action and voluntary association.
    Private landowners in every part of the country who have seen their 
land or their neighbors' taken through Government regulation have every 
reason to be deeply suspicious of any new Federal program, particularly 
one based in the Department of the Interior, and even more importantly 
a program emanating from the National Park Service. Even if this new 
program will purportedly do little more than designate National 
Heritage Areas, and then only create a system of federal designation 
and funding.
    Mr. Chairman, there is a considerable litany of innocuous-sounding, 
well-meaning, Department of Interior programs which were created by the 
Congress with clear directions that the National Park Service was to 
preserve the local communities and culture and was not to condemn or 
acquire private lands.
    Yet these programs went drastically awry and offer no hope that 
this new program would turn out any better.
    Briefly, in 1972 the Buffalo National River was created near the 
Ozarks in Arkansas. The area's people, community and especially culture 
were so unique that they were featured in a major story in the National 
Geographic. The people, their homes, and culture were supposed to be 
preserved. When the area was created in 1972 there were 1,108 
landowners along the river. When NBC aired a major news program on the 
Buffalo National River on its fifteenth anniversary in 1987 during a 
debate over how the National Park Service treated landowners--there 
were only eight (8) landowners remaining. Despite the clear intent and 
mandate of the Congress, the Federal bulldozer removed the people, 
their homes, communities and their unique culture.
    When the Cuyahoga National Recreation area was created in Ohio in 
1971, the Congress again called for the preservation of the community, 
rejected condemnation and acquisition and called for the use of 
easements. By the early 1980's hundreds of homes had been bulldozed and 
burned as people lost their ancestral homes and small businesses and 
the few remaining homes in the recreation area belonged to a handful of 
people who were wealthy and sophisticated enough, and with sufficient 
connections and competent legal advice to hold out from the Federal 
bulldozers. Among that handful were Congressman John Siberling and the 
editor of the Akron Beacon-Journal. Once again the plain people lost 
everything to a harmless program, created to preserve their 
communities, homes and cultures--and with no power to take their 
private lands. And yet they lost everything.
    That is why the twenty-three (23) lines of subsection (h), Private 
Property Protection, offers little meaningful protection over the long-
run to any landowners who may find themselves and their homes and 
property within the boundaries of a federally-designated National 
Heritage Area or National Heritage Corridor.
     private alternatives to the national heritage partnership act
    This proposed legislation completely overlooks and neglects 
America's long and unique heritage of private conservation and private 
stewardship. America has a long and successful tradition of private 
land trusts which have voluntarily and privately acquired land to 
protect a wide range of environmental, historic and scenic values. This 
tradition dates back to at least 1891 with the creation of the Trustees 
of Reservations in Massachusetts. The creation of an entirely new 
system of local or county heritage parks, corridors, recreation areas 
and trails fits far better into such a system of private action than 
into one funded by Federal taxpayers. Everything from local garden 
clubs finding voluntary ways to preserve a wet woods with the county's 
last stand of rare orchids, to horseback riders and snowmobilers 
creating voluntary right-of-way for non-intrusive public trails across 
private lands, to private funding to restore historic sites, have 
repeatedly been accomplished easily and without conflict because they 
were all voluntary and did not entail the heavy hand of the Federal 
Government--and especially of the National Park Service.
    If this program is truly to be the non-regulatory program that many 
of its proponents have asserted, then achieving its goals through 
private action is the way to prove it.
    America has a long and exceptionally successful history of private 
stewardship of environmental amenities. In fact the first private land 
trust in the world was the Trustees of Reservations (TTOR) which was 
created in Massachusetts in 1891 as a nonprofit, charitable corporation 
for conservation purposes to protect the countryside of Massachusetts 
and especially to preserve for the public its ``beautiful and 
historical places and tracts of land.''
    This was the first independent, private, nongovernmental 
organization in the United States established for the purpose of land 
preservation. Its purpose was to preserve in perpetuity areas with 
unique natural importance, scenic beauty, and historic value. Charles 
Eliot, son of the then president of Harvard College, deserves much of 
the credit for developing the idea of ``promoting conservation through 
voluntary agencies.'' In February 1890 he wrote to Garden and Forest 
magazine, urging the protection of the countryside throughout 
Massachusetts. He expressed concern that ``several bits of scenery 
which possess uncommon beauty and unusual refreshing power are in daily 
danger of destruction.'' He further urged the establishment of ``an 
incorporated association composed of citizens of [Massachusetts] and 
empowered by the State to hold small and well-distributed parcels of 
land free of taxes, just as the public library holds books and the art 
museum pictures for the use and enjoyment of the public. Its 1891 rules 
and regulations called for it to hold and maintain for the public 
``beautiful and historical place and tracts of land within this 
commonwealth.''
    Over the years the Trustees of Reservations have acquired and are 
custodians for nearly 100 properties from Western Berkshire County to 
Cape Cod and Nantucket. These lands have been acquired in fee, through 
gift, bequest, and purchase with funds raised privately for their 
acquisition. Additional areas are protected through conservation 
easements and restrictions or are otherwise indirectly protected.
    TTOR served as the model for the creation of similar land trusts 
throughout the world, beginning in 1894 with the National Trust in 
England.
    The private land trust movement has been one of the fastest growing 
areas of land conservation in America. There are probably over 2000 
such land trusts operating today, protecting everything from open space 
and prime agricultural land to the restoration, protection and 
conservation of old barns.
    Indeed, there are so many private land trusts, working in so many 
different areas of private conservation and preservation, that they 
have a national umbrella organization, the Land Trust Alliance, which 
was formed in 1982.
    It would seem that all of the legitimate preservation, conservation 
and recreation goals of the National Heritage Partnership Act could 
easily and legitimately be undertaken by private land trusts. 
Considering that the environmental movement raises hundreds of millions 
of dollars every year, and some estimates place the annual total 
receipts of all the Nation's environmental and conservation 
organizations as high as $3 billion each year, it should require little 
more than dedication and determination to raise the $15 million 
requested for the National Heritage Partnership Act.
    A series of voluntary heritage area trusts would be fully in 
keeping with the Nation's long history of voluntary association and 
private conservation activities, and since all relationships between 
the various trusts and private landowners would necessarily be 
voluntary and contractual--there would be no threat to private property 
rights, there would be far less opposition to the program, and it would 
be consistent with the national efforts to reduce the size and cost of 
government.
       national heritage partnership act as a threat to wildlife
    One of the most disturbing ironies of this act is that it may very 
likely lead to serious environmental harm, pitting the recreationist 
wing of the environmental movement against the conservationist wing, 
with little public awareness of this fact.
    Many, if not most, of the 110 or so proposed National Heritage 
Areas and National Heritage Corridors, as well as some of the few that 
are operational today, are located along or adjacent to rivers, 
streams, lakes and wetlands. This is where most of the proponents of 
these heritage areas would like to have parks, recreation areas, and 
especially trails and paths. Almost all of these corridors will 
encompass some sort of trail system: greenways, bikeways, scenic 
trails, national trails, snowmobile trails, jogging paths, rails-to-
trails, canoe trails with put-in and take-out areas, campgrounds, 
picnic sites, picnic tables, etc. and that is not an exhaustive list.
    Unfortunately all of these recreational/tourist trails and 
corridors will be cutting a swath through--i.e., fragmenting--some of 
the last remaining vital riparian habitat in the United States. For 
years the conservationists and proponents of ecosystem protection and 
biodiversity protection have warned of the accelerated loss of riparian 
habitat. They have identified this as some of the most important and 
critical habitat in the nation, as well as being one of the most 
rapidly disappearing ecosystems.
    Part of its importance, aside form its function in protecting 
streams and wetlands, is as breeding habitat for a substantial number 
of wildlife species, especially birds, which are easily subject to 
disturbance and which are not well adapted to new threats. Of 
particular concern are those neotropical migrants, the birds breeding 
in the U.S. and Canada which winter in Central and South America. The 
U.S. Fish and Wildlife Service, other Federal and State agencies, and 
most conservation groups have expressed extreme concern about the 
growing and dire plight of a great many of these birds. It is argued 
that the major reason their populations are declining so rapidly is 
because of the fragmentation of their breeding habitat in this country 
and loss of their wintering habitat south of the border.
    While there is relatively little that can be done quickly on their 
winter grounds, there have been calls from all quarters to immediately 
limit and reduce fragmentation of their breeding habitat. Whenever a 
housing subdivision is proposed, or a new sports arena out in the 
countryside, or when a landowner proposes to cut a road through his 
brush-covered hillside to allow his cattle to move from one pasture to 
another, or when a timber company proposes even a modest clear-cut--
warnings regarding the consequences of any additional habitat 
fragmentation are quickly sounded.
    Constructing trails and recreation corridors through the remaining 
narrow remnants of riparian habitat along most of the rivers and 
streams likely to be proposed for National Heritage Areas will almost 
totally fragment these habitats, leaving little protection for nesting 
neotropical migrant birds. A path down the middle of a riparian forest 
opens up both sides to substantially increased predation by brown-
headed cowbirds, which are nest parasites on these species. They lay 
their eggs in the nests of smaller species, which end up raising only a 
cowbird, and none of their own young. Cowbirds follow even the 
narrowest of paths deep into the woods, searching for nests to 
parasitize.
    Additionally, jays, grackles and crows follow these trails and find 
access to the eggs and young of many songbirds. Also raccoons, 
opossums, feral dogs, feral cats and free-roaming house cats and 
barnyard cats use these trails and corridors with their human scents 
and food scraps and waste as little more that a buffet line.
    With all of the attention given to the complaints of 
environmentalists concerning the harm from habitat fragmentation 
resulting from highway construction, home building, timber harvest or 
even firebreak construction, it is disturbing that little if any 
attention is being given to fragmentation of perhaps the most 
endangered type of habitat--the riparian zones being turned into 
recreational trails, corridors and greenways. It seems that some 
environmentalists oppose anything that fragments habitat except those 
things that benefit themselves and their constituents.
    If the National Heritage Partnership Act does become law, it should 
at the very least be subject to all the NEPA requirements and the 
necessity of preparing a detailed EIS regarding the impact of each and 
every National Heritage Area and National Heritage Corridor on riparian 
habitat, wetlands habitat, and especially upon the neotropical 
songbirds which utilize the areas.
    In conclusion, Mr. Chairman, this is not the sort of program the 
Federal Government should be undertaking at this time. The program 
should be undertaken voluntarily by private citizens' groups, 
conservation organizations, chambers of commerce, and tourism boards on 
a local level, by local people, spending their own money, not other 
people's money.

    Senator Thomas. Okay, fine. Thank you.
    Mr. Obey.

        STATEMENT OF CRAIG D. OBEY, VICE PRESIDENT FOR 
  GOVERNMENT AFFAIRS, NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Akaka, my name's Craig Obey, vice 
president for Government Affairs at the National Parks 
Conservation Association. On behalf of our 300,000 members, I'd 
like to thank you for the opportunity to testify today on S. 
2543.
    I also want to begin by thanking both of you for the 
leadership that you've demonstrated in pushing Congress and the 
administration to fund the operating needs annually of the 
national parks. Your help has been indispensable, and we 
greatly appreciate the work you're doing there.
    National heritage areas are not units of the National Park 
System; however, they can and do play an important role in 
commemorating, protecting, and interpreting important facets of 
our nation's natural, cultural, historic, and recreational 
resources through locally driven efforts.
    As the subcommittee knows, national heritage areas are 
gaining popularity with many communities and members of 
Congress. So far during the 108th Congress, 38 bills have been 
introduced to designate or study 21 areas, bringing into stark 
relief the need to develop consistent standards. It is our hope 
that S. 2543 will help produce the highest-possible quality 
decisions and legislation related to national heritage areas.
    We also believe that the analysis now being undertaken by 
the National Park System Advisory Board will provide useful 
perspective on the questions with which the subcommittee is 
grappling on the role, place and future of national heritage 
areas.
    We appreciate and applaud the chairman's effort to better 
define the national heritage area program within the Park 
Service. NPCA has a strong history of supporting standards for 
the consideration of new units of the National Park System, 
standards that play an essential role in maintaining the degree 
of integrity that exists in the National Park System today. We 
believe that the national heritage areas program can benefit 
from a similar effort to define standards.
    We applaud your effort as part of S. 2543 to require that 
national heritage areas have national significance--maybe 
``importance,'' as the Park Service determined; I'm not sure 
which way to go there--and define the mechanisms through which 
such significance is determined. The standards you set forth, 
if implemented, can help ensure that a national heritage areas 
program has the highest-possible degree of integrity. Of 
course, their ultimate application will depend, to a very large 
degree, on the political will of Congress to adhere to them. As 
a practical matter, it's instructive that the only heritage 
area enacted during the 108th Congress so far was enacted as 
part of the fiscal year 2004 appropriations bill, something 
authorizers love.
    We agree with the need for discipline with regard to 
funding the national heritage areas. Unlike the Federal 
commitment with regard to the National Park System, virtually 
all legislation creating national heritage areas contemplates 
the eventual sunset for Federal funding after either 10 or 15 
years. If a national heritage area cannot wean itself from 
these modest Federal funds within a 15-year timeframe, as the 
chairman's legislation contemplates, then we would tend to 
question the degree of stakeholder support that such an area 
legitimately can claim.
    S. 2543 contemplates capping the annual funding 
authorization for all national heritage areas at $15 million, 
with a $750,000 annual cap for funding suitability studies. We 
believe a cap may be worthy of exploration, but that the $15 
million cap is unrealistic, given current funding levels. As 
the subcommittee may know, the Interior appropriations measure 
recently passed by the House proposes $15.1 million this year 
for national heritage areas, so that would already break the 
cap that's in your bill.
    We appreciate the chairman's desire to ensure that the 
national heritage areas, given their rapidly growing 
popularity, do not become a significant drain on the National 
Park Service budget. NPCA is extremely concerned, as you know, 
about the shortfall of more than $600 million in the Park 
Service's annual budget, and about the impact that is having on 
the Park Service's ability to protect our national treasures 
and serve those who visit them.
    As the subcommittee knows, the parks are experiencing a 
variety of service cutbacks this summer because of the 
cumulative failure over the years by Congress and the executive 
branch in meeting the parks' annual needs. In the last 3 years 
alone, the national parks have had to absorb $170 million in 
new unfunded costs, including the cost of unfunded homeland 
security demands, unfunded cost-of-living adjustments, and 
unreimbursed damage or other impacts from natural disasters.
    Part of ensuring that the parks receive the resources they 
need involves ensuring that the flow of reliable information 
about park needs, and the submission of realistic budgets that 
reflect those needs, occurs. In this year's proposed budget, 
for example, the administration requested $2.5 million for 
heritage areas, compared to the fiscal year enacted amount of 
14.3 million. The same lowballing occurred with regard to the 
employee cost-of-living increases on homeland security needs. 
Over time, such unrealistic estimates take their toll, and we 
are seeing the results of that in many national parks this 
summer.
    Congress has had its part in this mess, as well. For 
example, across-the-board cuts in the Interior bill in the last 
couple of years have cost the Park Service's annual budget 
roughly $20 million, nearly $5 million more than the annual 
budget for national heritage areas.
    The point of raising this is simply to illustrate the need 
to set realistic targets that can contribute to enforcing 
discipline in a way that's sustainable. In this regard, we 
would question whether a $15 million cap is realistic, as I 
stated earlier. We would, however, suggest a way to help focus 
coordinating entities under the bill on the fact that their 
funding should ultimately phaseout. We suggest that section 6 
of the bill be amended to require that, as part of the annual 
report required for each national heritage area, the 
coordinating entity also specify specific performance goals 
related to making the heritage area self-sustaining upon the 
expiration of Federal funding, as well as progress toward those 
goals.
    My written testimony includes suggestions with regard to 
several other specific aspects of the bill. I'd welcome the 
opportunity to talk further with the subcommittee about these 
and a handful of other minor issues.
    In conclusion, although we've had a limited time to review 
S. 2543, our initial analysis makes us pleased to support the 
chairman's legislation, with some modest adjustments that can 
help its effectiveness and clarify its intent.
    Thank you for the opportunity to testify, and I'm pleased 
to answer any questions.
    [The prepared statement of Mr. Obey follows:]

  Prepared Statement of Craig D. Obey, Vice President for Government 
            Affairs, National Parks Conservation Association

    Mr. Chairman and members of the subcommittee, I am Craig Obey, Vice 
President for Government Affairs for the National Parks Conservation 
Association. On behalf of the 300,000 members of NPCA, I thank you for 
the opportunity to testify today regarding S. 2543, the National 
Heritage Partnership Act.
    Mr. Chairman, I want to begin by thanking you for your leadership 
in pushing Congress and the administration to provide the national 
parks with the operating resources they need to protect our national 
treasures and to serve the American people. Your help, along with that 
of Senator Akaka and many other members of this subcommittee, is 
absolutely essential and we greatly appreciate your efforts.

                        NATIONAL HERITAGE AREAS

    National Heritage Areas are not units of the National Park System. 
However, they can and do play an important role in commemorating, 
protecting, and interpreting important facets of our nation's natural, 
cultural, historic and recreational resources. They are locally driven 
and bring together a broad range of stakeholders at the federal, state 
and local levels in efforts to preserve important aspects of our shared 
heritage.
    NPCA has supported the creation of some National Heritage Areas in 
the past, including the Shenandoah Valley Battlefields National 
Heritage Corridor, the Erie Canalway National Heritage Corridor, and 
the Illinois and Michigan Canal National Heritage Corridor. We 
supported these areas because they provided an important, community-
driven means to preserve nationally significant historical and cultural 
areas at relatively low cost, while facilitating the interpretation of 
significant aspects of our cultural heritage.
    As the subcommittee knows, National Heritage Areas are gaining 
popularity with many communities and members of Congress, for reasons 
ranging from the desire to preserve and protect ``cultural landscapes'' 
to efforts to foster economic development and heritage tourism. So far 
during the 108th Congress, members of the Senate and House have 
introduced 26 designation bills related to 15 areas, and another 8 
study bills on 6 areas. The implications of that popularity on the 
relative meaning of a designation as a National Heritage Area and on 
the federal resources devoted to these various areas brings into stark 
relief the need to develop consistent standards for them. 
Understandably, the lack of standards or a systematic approach to 
designating National Heritage Areas over the last two decades has 
resulted in inconsistent criteria and a variety of components and 
charges being included in authorizing legislation for the 24 existing 
areas.
    Perhaps the issue that has most impacted recent attempts to 
designate new areas has been the need to develop standards. It is 
noteworthy, particularly as the subcommittee examines how and whether 
to enact a measure like S. 2543, that the only National Heritage Area 
enacted into law so far during the 108th Congress was designated as 
part of the FY 2004 Interior appropriations bill. Despite efforts such 
as S. 2543, political pressure undoubtedly will continue to affect the 
designation, or lack thereof, of various National Heritage Areas. It is 
our hope that standard criteria, mechanisms and processes for studying 
and designating new areas will help produce the highest possible 
quality decisions and legislation related to National Heritage Areas. 
Toward this end, the National Park System Advisory Board has also been 
looking into the role of National Heritage Areas as they relate to the 
National Park Service's mission, as well as the appropriate level of 
assistance and management that the Park Service should provide, among 
other issues. We expect this examination to provide a useful 
perspective on the questions with which the subcommittee is grappling 
on the role, place, and future of National Heritage Areas.

                               STANDARDS

    We appreciate and applaud the Chairman's effort to better define 
the National Heritage Area ``program'' within the Park Service. In 
fact, the 2001 report by the National Park System Advisory Board, 
entitled Rethinking the National Parks for the 21st Century, 
recommended that a formal Heritage. Areas program be established ``to 
support partnerships among communities, so that the full scope of the 
American experience is revealed.'' A host of others have also raised 
the need to define standard criteria.
    NPCA has a long history of supporting standards for the 
consideration of new units of the National Park System. Standards have 
played an essential role in maintaining the degree of integrity that 
exists in the National Park System today. We believe that the National 
Heritage Areas program can benefit from a similar effort to define 
standards.
    We applaud your effort as part of S. 2543 to require that National 
Heritage Areas have national significance, and to define the mechanism 
through which such significance is determined. The standards you set 
forth, if implemented, can help ensure that a National Heritage Areas 
program has the highest possible degree of integrity. However, as the 
subcommittee knows, such standards ultimately will be only as effective 
as Congress has the political will to allow them. National Heritage 
Areas already include portions of 114 congressional districts, and 
include formal and informal relationships between the Park Service and 
roughly 3,500 partners. These numbers of constituents will continue to 
grow as new heritage areas are created, making it doubly important to 
set expectations up front with regard to the resources that the areas 
can expect to receive from the National Park Service.

                                FUNDING

    We agree with the need for discipline with regard to the funding 
provided to National Heritage Areas. Unlike the federal commitment with 
regard to National Park System units, virtually all existing 
legislation creating National Heritage Areas contemplates the eventual 
sunset of federal funding. The funds provided through those bills are 
generally envisioned as seed money to enable the areas to get up and 
running and leverage additional local, state, and regional dollars. 
Consequently, it is important that National Heritage Areas not become 
overly dependent on federal seed funds. The authorizing legislation for 
individual areas typically has included federal funding sunsets after 
either 10 or 15 years. If a National Heritage Area cannot wean itself 
from these modest federal funds within a 15-year timeframe, as the 
Chairman's legislation contemplates, then we would tend to question the 
degree of stakeholder support that such an area legitimately can claim.
    It is important to note, however, that a very small number of 
existing areas have a somewhat different purpose than the vast majority 
of existing National Heritage Areas. Shenandoah Valley Battlefields, 
for example, is actually charged with preserving 10 Civil War 
battlefields in the historic Shenandoah Valley, and uses easements and 
fee purchases to do so. This model is relatively unique, and plays an 
important role in preserving resources that otherwise could very well 
disappear. Such an option should not necessarily be foreclosed in the 
future.
    S. 2543 contemplates capping the annual funding authorization for 
all National Heritage Areas at $15 million, with a $750,000 annual cap 
for funding ``suitability-feasibility'' studies. We believe a cap is 
worthy of exploration, but that the $15 million cap is unrealistic 
given current funding levels. As the subcommittee may know, the 
Interior appropriations measure recently passed by the House proposes 
$15.1 million in fiscal year 2005 for Heritage Partnership Programs. 
Given that fact, we question whether a $15 million cap would be 
sustainable at this point.
    We appreciate the Chairman's desire to ensure that National 
Heritage Areas, given their rapidly growing popularity, do not become a 
significant drain on the National Park Service budget. NPCA is 
extremely concerned about the shortfall of more than $600 million in 
the Park Service's annual operating budget, and about the impact that 
is having on the Park Service's ability to protect our national 
treasures and serve those who visit them. As the subcommittee knows, 
the parks are experiencing a variety of service cutbacks this summer 
because of the cumulative failure over the years by Congress and the 
executive branch in meeting the parks' annual needs.
    In the last three years, alone, the national parks have had to 
absorb $170 million in new, unfunded costs, including the costs of 
unfunded homeland security demands, unfunded cost of living 
adjustments, and unreimbursed damage or other impacts from natural 
disasters.
    Part of ensuring that the national parks receive the resources they 
need involves ensuring the flow of reliable information about park 
needs and the submission of realistic budgets that reflect those needs. 
In this year's proposed budget, for example, the administration 
requested $2.5 million for National Heritage Areas, compared to the FY 
2004 enacted amount of $14.3 million. The same ``lowballing'' occurred 
with regard to employee cost of living increases and homeland security 
needs. Over time, such unrealistic estimates take their toll, and we 
are seeing the results of that in many national parks this summer.
    Congress has had its part in this mess as well. For example, 
across-the-board cuts in the Interior appropriations bill last year, 
alone, cost the Park Service's operating budget roughly $20 million--
nearly $5 million more than the total amount of the budget for National 
Heritage Areas.
    The point of raising this is to illustrate the need to set 
realistic targets that can contribute to enforcing discipline in a way 
that is sustainable. In this regard, we would question whether a $15 
million cap is realistic, as the Appropriations Committee may very well 
exceed it this year. In addition, we suggest that section 6 of the bill 
be amended to require that, as part of the annual report required for 
each National Heritage Area, the coordinating entity also specify 
specific performance goals related to making the heritage area self-
sustaining upon the expiration of federal funding, as well as progress 
toward those goals.

                           ADDITIONAL ISSUES

    Another way to help ensure sustained discipline is to ensure that 
the process developed is perceived as effective and fair. We believe 
the bill does a relatively good job in this regard. However, depending 
on how section 4(d)(2) is implemented, it could frustrate proponents of 
both worthy and unworthy designation proposals in a manner that defeats 
the purpose of the criteria in the bill. Section 4(d)(2) reserves the 
option for the Secretary to recommend against designation of a proposed 
area based on budgetary impact or ``any other factor unrelated to the 
criteria'' set forth in the bill. We believe that the worthiness of a 
particular proposal should be clearly separated from the political 
position of any administration regarding whether it should be 
designated. We are not convinced that the language in section 4(d)(2) 
adequately accomplishes this end.
    With regard to section 6(c), the prohibition on acquisition of real 
property, the language appears to be sufficiently narrowly crafted that 
we have no objection, based on our preliminary examination. For 
example, we assume this would not impact the potential acquisition by 
national park units that reside within the borders of a National 
Heritage Area and that it would not impact the continued ability of an 
area like Shenandoah Valley Battlefield to meet its mandates related to 
land acquisition.
    In addition, we interpret the bill as providing prospective, not 
retrospective standards, and as not generally applying to areas already 
designated, with the exception of the authorization of funds. However, 
this is an issue that may merit clarification in order to minimize 
unnecessary confusion. For example, the authorizations of 
appropriations in section 9 appear to be directed at existing and new 
areas, while the remainder of the bill is directed at areas yet to be 
designated. The subcommittee may want to add a savings clause to 
clarify this issue.
    We would welcome the opportunity to talk further with the 
subcommittee about these and a handful of other minor issues as you 
proceed with consideration of the bill.

                               CONCLUSION

    In summary, although we have had limited time in which to review S. 
2543, our initial analysis makes us pleased to support the Chairman's 
legislation, with some modest adjustments that can help its 
effectiveness and clarify its intent. Part of the value of National 
Heritage Areas is as a low-cost partnership tool to preserve threatened 
pieces of America's culture, history and scenery that may not be 
readily susceptible to other traditional designations or forms of 
protection. Properly executed, National Heritage Areas can empower 
local communities and other stakeholders to protect nationally 
important aspects of local culture and history they cherish and build 
strong community support for their preservation and interpretation. It 
is important that the National Heritage Area program facilitate that 
support in a manner that maximizes the likelihood of success. Part of 
that success requires that these programs ultimately be self-
sustaining. We believe that S. 2543, with some relatively modest 
changes, has the potential to be quite helpful in this regard.
    Thank you for the opportunity to testify.

    Senator Thomas. Fine. Well, thank you, gentlemen. We 
appreciate it very much.
    Mr. Rice, you mentioned--and I guess I'm a little unclear 
about it--the Secretary having veto power. Now, I don't quite 
understand that. It seems to me there's two things. One is the 
Interior Department can make a recommendation, but the Congress 
decides, don't they?
    Mr. Rice. You are correct, sir. And I don't have the 
specific section of the bill in front of me. But when I read 
over the bill, there is a section in there that basically says 
if the national heritage area meets all the criteria for 
national significance, the Secretary, due to any--quite 
frankly, any reason, including budgetary reasons, can withhold 
providing that designation. And we just feel, Mr. Chairman, 
that that should be your purview, as opposed to the Secretary 
of the Interior's.
    Senator Thomas. I agree with that, and I think that's our 
intention. It may not be the way it is, but that's the 
intention that we have, I guess.
    Now, you mentioned that there shouldn't be any limitation 
on the definition of the hiring and the personnel.
    Mr. Rice. I believe--actually, the language I was 
recommending, Mr. Chairman, is to basically allow for other 
definitions that may be appropriate to fulfill the management 
plan.
    Senator Thomas. I see.
    Mr. Rice. I mean, for instance, some management plans may 
need to hire a development director to actually go out and 
actually raise the money. They may need the assistance of a 
marketing individual to actually go out and market the 
different resources. Those two positions, in particular, were 
not included in the list of definitions. And, you know, we're 
not saying that it has to be limited to that, and we're also 
not suggesting that it should have unlimited staff. Our 
particular heritage area, for instance, Mr. Chairman, we have 
six staff members. And actually we have two regional existing 
nonprofits already in existence, so we didn't actually go out 
and hire new staff; we just basically picked up a lot of the 
workload that was already there. And of our Federal 
appropriations, we use about 10 percent--10 to 15 percent of 
our Federal appropriation for administrative purposes; most of 
that goes right into the projects, into the communities. And 
it's intentionally set up that way so that, quite frankly, 
we're not dependent on the Federal funding. At the same time, 
however, we want to be able to leverage those dollars and get 
them in the communities where they belong, Mr. Chairman.
    Senator Thomas. I see.
    Mr. Smith, we do have a heritage program.
    Mr. Smith. I know, sir.
    Senator Thomas. So this effort is to make it work better. 
It isn't a matter of whether you're going to have one or not, 
as much as you--I guess that's your point of view, we shouldn't 
have any. And it doesn't require any purchase of Federal land 
or--I agree with you, I think there ought to be a limit on the 
amount of Federal land we have for purposes. But this does not 
require ownership of land, does it?
    Mr. Smith. The stated purpose does not, although it does 
say that heritage areas may go out and acquire land. 
Supposedly, they're supposed to do it with private funds. But, 
as we've already seen, the Shenandoah Valley Heritage Area has 
used Federal funds for land acquisition. And the main thing 
that we're worried about is, all of these other areas--some of 
the wild and scenic rivers, some of the recreation areas--with 
even more explicit restrictions on what can be done to 
landowners. Landowners have ultimately lost their land, through 
one manner or another.
    I mean, our fears here is that this is not going to lead to 
fewer areas, or better; it's going to lead to more areas, 
because, as Deputy Director Jones said, people want the plaque 
and want the name, and so there are going to be more people 
queuing up as this is now an official program of the National 
Park Service. And I think quickly it will be out of control and 
continue to grow.
    One of the problems that we have is that the real problem 
of people who are inside a designated heritage area, and there 
is essentially nothing they can do about it. A lot of the 
property-rights community have believed in something called 
``opt out,'' the ability to opt out. But, in some of the heated 
hearings that we have, very confrontational hearings that we 
had on the House over many years, Mr. Steve Hodapp, who is 
probably the point person on the House Resources Committee and 
formerly worked with the Park Service to create this program, 
pointed out to the property-rights people that opt-out sections 
are simply meaningless, a will-o'-the-wisp. You're either 
inside the geographical boundaries of an area, or you're not 
inside it. You're either inside or outside. And if you're 
inside, since it was created to protect some sort of values, 
whether scenic or cultural or historic or whatever, then if you 
decide that you, as a private landowner, are going to put in a 
pig farm or paint your silo purple with yellow stripes, 
somebody somewhere is going to find a way to regulate you and 
control you in there.
    Senator Thomas. Do you know any examples of that in 
heritage?
    Mr. Smith. I will submit some examples to you in writing, 
sir.
    Senator Thomas. The Shenandoah one that you used had 
specific area and language for that, which this is not the same 
language as the Shenandoah. So, you know, we're trying to 
keep--as I said, I agree with you. On the other hand, I have to 
tell you, where I grew up, right outside of Yellowstone, our 
ranch was on the border of the Shoshone Forest. Now I go out 
there, and all below that is full of houses and so on. I'm kind 
of glad that we set that aside. So your broad statement that it 
all ought to be privately owned, I think you'd have to take 
another look at that if you got out and looked at some of those 
areas.
    Mr. Smith. May I make one additional comment?
    Senator Thomas. Absolutely.
    Mr. Smith. One of the things we have had, even in areas 
like this--I mean, part of the genius of the American people--
Tocqueville's observations about America's use of voluntary 
associations, private actions going back to 1891, the first 
land trust in the world was created by the son of the president 
of Harvard University, in Massachusetts, called the Trustees of 
Reservations. This was over a hundred years ago. And he was 
worried, at that time, the private sector, about urban sprawl. 
He set up the Trustees of Reservations to acquire lands that 
were disappearing all around the State--historic areas, a house 
where a treaty was signed, a field where the Indians had a 
meeting, things that were disappearing, old houses and so on--
to create what he called a ``living landscape'' of the State of 
Massachusetts to be managed in perpetuity for the people, just 
like a library or an art museum. And that has worked 
fantastically successfully. I would like to see more efforts--
--
    Senator Thomas. There's a lot of those around just like 
that, aren't there?
    Mr. Smith. Right. There are something like 2,000 land 
trusts and 3,000 chambers of commerce, and I would like to see 
them do more of this, instead of the government.
    Senator Thomas. Yes.
    Mr. Smith. I just don't trust the Government not to 
eventually do something bad to private landowners.
    Senator Thomas. I see. All right.
    Mr. Smith. I don't mean you, sir, but the Government, per 
se.
    Senator Thomas. I understand your point of view. Let's see, 
my time's out.
    Senator?
    Senator Akaka. Thank you.
    Mr. Rice, the first point in your testimony is that 
national heritage area designation must come after planning. 
You have proposed seven proposals. Under Senator Thomas' bill, 
designation of a heritage area must be preceded by the 
completion of a feasibility study by the National Park Service. 
To follow up on your point, would it make sense to require the 
designated management entity to have its management plan for 
the area completed before formal designation as a national 
heritage area?
    Mr. Rice. Senator, we believe it would. Because, as I 
indicated, a comprehensive planning process in which you 
basically examine all of the issues--the suitability and 
feasibility addresses some of the issues, but a management plan 
is a comprehensive plan, an interpretation, a business plan. It 
is a very comprehensive plan. And what we are suggesting, 
Senator, is that you may discover that, through that 
comprehensive planning process, a couple of things--one, we may 
get to this answer, in terms of how many heritage areas should 
be designated by Congress as a national significance, because 
we haven't had a process in the past. They've been designated 
through a lot of different process. This actually gives us a 
structure.
    For instance, we may find out, through this comprehensive 
planning process, it doesn't need to have Federal involvement, 
it's better managed best through local or State involvement. 
Also, it may be best managed through a scenic byways program, a 
State program. There are hundreds of programs and opportunities 
out there, but by completing a thorough management-plan 
process, we'll get to that answer.
    Senator Akaka. Mr. Obey, Mr. Rice has suggested that 
heritage areas should be able to have their authorization 
extended beyond the current 10- or 15-year period, and that 
heritage areas should be made at least, quote, ``affiliated 
areas,'' unquote, of the National Park System. Do you agree 
with Mr. Rice's recommendations?
    Mr. Obey. Well, we see the value in having a sunset. We 
think that the program itself, over time--that's been part of 
the bargain. And one of the ways, I think, to get local buy-in, 
frankly, is to persuade folks that they really need to be 
supporting these areas locally, going out, beating the bushes 
for funding, and that type of thing, over time. I think 15 
years, hopefully, will provide ample time for most heritage 
areas to do that. So we think it's reasonable to contemplate a 
sunset.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Thomas. Okay. Well, let's see, I had one here. I've 
forgotten whether----
    Mr. Obey, you mentioned, your testimony, that the NPCA 
supported the creation of the Erie Canal Heritage Corridor, 
Illinois and Michigan Canal Corridor, and Shenandoah Valley 
Heritage Corridor--Battlefield Heritage Corridor. Has your 
group opposed any national heritage area designations? And if 
so, why?
    Mr. Obey. To my knowledge, we haven't opposed them, but we 
haven't necessarily actively supported a number of them. I 
pointed those out specifically because those are some of them 
we actually were active in supporting. I'd be glad to find out 
if anyone else has an answer.
    Senator Thomas. Well, I was just wondering if you have had 
any criteria in your group that, sort of, you know----
    Mr. Obey. Kind of like the Federal Government, we haven't 
had criteria on that one.
    [Laughter.]
    Senator Thomas. Whatever. Okay.
    Well, gentlemen, we appreciate it. Certainly, there are 
different points of view about how we do this. The fact is, of 
course, that we're into heritage areas, and we can either not 
have any at all, or we can continue to do it the way we are, or 
we can hopefully make it a better and more effective program, 
which is what we're seeking to do here. And, obviously, we 
appreciate your suggestions, and we'll go back and take a look 
at this and see if we can do something a little more.
    So if there's nothing further, gentlemen, we appreciate it. 
The Committee is adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                   National Parks Conservation Association,
                                     Washington, DC, July 16, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas: Thank you again for the opportunity to 
testify before the Subcommittee on National Parks on June 24, 2004, 
regarding S. 2543. I am writing in response to the questions included 
in your follow-up letter of June 30. My responses to your questions are 
attached.
    I hope you find this information useful, and I thank you again for 
the opportunity to testify. Please don't hesitate to let me know if I 
may be of further assistance to the subcommittee.
            Best regards,
                                             Craig D. Obey,
                             Vice President for Government Affairs.
[Enclosure.]
                     questions from senator thomas
    Question 1. The National Parks Conservation Association has been a 
vocal opponent of programs that take funding away from park expansions 
and park maintenance.
    Part 1. Can you provide specific examples of National Park Service 
funding requirements that draw funding away from traditional park 
programs such as enforcement, interpretation and maintenance?
    Answer. As you know, NPCA's primary priority with regard to park 
funding has been base operations for the national parks. In March of 
this year, we released our report, Endangered Rangers, which 
illustrates the service cutbacks that are occurring in the national 
parks this summer by virtue of the $600 million shortfall that exists 
in park base operations. This annual funding backlog is every bit as 
significant as the widely publicized maintenance backlog, if not more 
so, in terms of the impact it has on the Park Service's ability to 
protect our national parks for future generations. I am attaching a 
copy of the report for the subcommittee.
    One example of funding requirements of the National Park Service 
that draw funding away from traditional park programs such as 
enforcement, interpretation and maintenance is the increased and 
unbudgeted homeland security requirements placed on the national parks 
since September 11, 2001. The Park Service has had to spend millions of 
dollars on added security in our nation's icon and border parks, and 
has even sent personnel to guard Bureau of Reclamation dams--assistance 
for which their parks have not been reimbursed. These new requirements 
have placed significant pressures on an already strained budget for the 
parks, and Congress should make the parks eligible to receive homeland 
security funding.
    In addition, unbudgeted mandatory cost of living increases also 
draw funding away from traditional park programs. Although such COLA's 
are important, when the administration's budget submissions fail to 
account for the full cost of likely salary increases that Congress 
mandates, core programs of the national parks suffer--particularly 
operations.
    Finally, a specific program that draws funding away from 
traditional park programs such as enforcement, interpretation and 
maintenance is the Department of the Interior's Cooperative 
Conservation Initiative. Initiatives like CCI, whether worthy or not, 
do not constitute core programs that keep the parks up and running, 
serving the public, and protecting our national legacy. The consequent 
failure to provide the parks with sufficient resources means they can 
lack sufficient staff to carry out the types of goals that programs 
like CCI promote. The House Interior Appropriations Subcommittee cut 
funding for such add-on programs in their proposal for FY 2005 in order 
to increase funding for base operations of the parks. This is a trade-
off with which we agree.
    Part 2. Would you include National Heritage Areas in that same 
category?
    Answer. We believe you are right to focus on getting control over 
the Heritage Areas program, in order to ensure that any designated 
areas are truly worthy of designation. However, we would not put the 
National Heritage Areas in the same category as a program like the CCI. 
The primary reason is that designation as a National Heritage Area can, 
in certain circumstances, actually provide a fiscal benefit to the 
National Park System. One of the reasons the National Heritage Area 
Program was created was to provide a low-cost form of recognition that 
provides for the preservation of nationally important resources that 
may not quite exceed the bar necessary for designation as a national 
park. If the program did not exist, there. would be much more political 
pressure to create national parks out of some of these areas--a cost to 
the park system both in terms of operations funding and in terms of its 
integrity and quality. National parks should be the most superlative 
examples of America's natural and cultural heritage. That does not 
mean, however, that other parts of our heritage, including those 
commemorated by National Heritage Areas, are not worthy of preservation 
or the relatively modest funds that the heritage areas receive.
    Question 2. You mentioned in your testimony that NPCA supported the 
creation of The Erie Canal Heritage Corridor, Illinois and Michigan 
Canal Corridor, and Shenandoah Battlefields Heritage Corridor. Has NPCA 
opposed any National Heritage Area designations? If so, which ones and 
why? Why has NPCA chosen not to support the remaining National Heritage 
Areas?
    Answer. NPCA has not formally opposed any National Heritage Area 
designations, nor have we expressed our formal support for very many. 
An absence of expression of opinion by NPCA about a particular proposal 
should not be taken as either support for or opposition to it. As I 
stated during the hearing, NPCA, not unlike the Congress, has not 
established any formalized criteria with regard to whether an area 
should or should not be designated as a National Heritage Area. More 
often than not, our focus has been on whether proposed national park 
units or expansions of units are suitable as additions to our National 
Park System, as we are the NATIONAL PARKS Conservation Association, and 
heritage areas are not units of the National Park System.
    However, the Heritage Areas that we have supported in the past all 
had something basic in common--all were, in our judgment, areas of 
particularly high value and sufficient national importance that we felt 
they merited special recognition and protection, although not 
necessarily national park status. The areas cited in my testimony--
Shenandoah Valley Battlefields, Erie Canalway, and the Illinois and 
Michigan Canal--also tend to be resource-based National Heritage Areas, 
as opposed to other areas that would be more properly described as 
tourist districts.
    Question 3. Your testimony states that NPCA applauds the 
requirement that National Heritage Areas have ``National Significance'' 
to achieve designation. How would it change interpretation of the bill 
if the term ``National Importance'' was used in place of ``National 
Significance'' as the National Park Service has suggested?
    Answer. We believe the most important guide is the definition you 
choose to associate with the term you use in the legislation, whether 
``national importance'' or ``national significance''. The fact is, a 
federally designated National Heritage Area should have national 
significance. If the term ``national importance'' is preferred by the 
Park Service to avoid confusion, a desire we can understand, then we 
encourage you to define national importance in a manner sufficient to 
provide a sufficient measure of quality and distinctiveness. We would 
not suggest that the subcommittee use the same definition of national 
significance as is used for national parks, as that would mean a 
National Heritage Area would essentially have the same significance and 
place in American society as a national park.
    For the benefit of the subcommittee, I am attaching copies of three 
fact sheets to help shed further light on the analysis NPCA has done 
with regard to the few National Heritage Areas on which we have focused 
significant attention. Two of the fact sheets describe areas cited in 
my testimony that have already been designated--Shenandoah Valley 
Battlefields and Erie Canalway--and the third refers to the meritorious 
potential designation of a National Heritage Area to commemorate 
Gullah/Geetchee culture. We believe each of these three to have 
significant national importance. If the word ``significance'' provides 
an added measure of comfort, the subcommittee might want to use the 
term ``significant national importance''.
    Question 4. Your testimony questioned the legitimacy of a heritage 
area that is not able to ``wean'' itself from Federal funding within 15 
years. Are you recommending that National Heritage Areas that do not 
develop an adequate level of stakeholder support should loose their 
national designation?
    Answer. No. Although we believe an area that does not achieve 
independent funding within 15 years should not necessarily continue to 
receive federal funds, we believe actual designation should be 
considered independently.
                                 ______
                                 
                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                 Washington, DC, September 8, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas: Enclosed are the answers to the follow-up 
questions from the hearing held by the Subcommittee on National Parks 
on June 24, 2004, on S. 2543, the National Heritage Partnership Act. 
These responses have been prepared by the National Park Service.
    Thank you for giving us the opportunity to respond to you on this 
matter. We apologize for the delay in our response.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]

                     QUESTIONS FROM SENATOR THOMAS

    Question 1A. Twenty-four National Heritage Areas and several 
hundred state heritage areas currently exist. The potential for growth 
in the number of national areas is unlimited.
    Do you agree that criteria are needed to control the growth in 
National Heritage Areas?
    Answer. Yes. The National Park Service has been applying criteria, 
outlined in previous testimonies, to evaluate potential new National 
Heritage Areas for many years now. We agree that it would be extremely 
valuable for Congress to provide direction on what criteria should be 
applied to assure that only the most important stories and places are 
recognized as National Heritage Areas.
    Question 1B. Will the criteria included in S. 2543 improve the 
National Heritage Area program?
    Answer. The National Park Service strongly supports the adoption of 
criteria for the evaluation of proposed National Heritage Areas. The 
criteria in S. 2543 require that proposed National Heritage Areas 
demonstrate evidence of place-based resources that tell a nationally 
important story with the involvement and commitment of the local 
community and its leaders. This analysis is a strong predictor of the 
future success of a heritage proposal.
    Question 2A. S. 2543 defines National Significance and requires 
that new National Heritage Area designations be Nationally Significant. 
In your testimony, you suggest using the term National Importance in 
place of National Significance to avoid confusion with the process for 
designating units of the National Park System.
    Wouldn't it be best to use the same terminology for selecting sites 
where the National Park Service is involved in funding and guidance? 
They are receiving national recognition and Federal funding, is it too 
much to ask that they be nationally significant?
    Answer. National heritage areas are not units of the National Park 
System. The land is not owned or managed by National Park Service 
(except in cases where park units exist within the boundaries of 
national heritage areas). They are locally driven, initiated and 
managed by the people who live there and tend to be larger living 
landscapes than units of the National Park System. There are many types 
of programs where the National Park Service provides recognition and 
funding, from affiliated areas to the National Register of Historic 
Places to Wild and Scenic Rivers. Each program is different and thus, 
different sets of criteria are applied depending on our level of 
involvement and assistance. We do agree that National Heritage Areas 
need to be nationally important and illustrate major historic, 
cultural, natural or social themes important to the history of the 
United States and that the resources have integrity and are outstanding 
examples of features that relate to the theme.
    Question 2B. How is the term national significance applied to units 
of the National Park System?
    Answer. The National Park Service Management Policies, updated in 
2001, state that to be eligible for consideration as a unit of the 
National Park System, an area must possess nationally significant 
natural or cultural resources. An area must meet all of the following 
standards:

  <bullet> It is an outstanding example of a particular type of 
        resource.
  <bullet> It possesses exceptional value of quality illustrating or 
        interpreting the natural or cultural themes of our Nation's 
        heritage.
  <bullet> It offers superlative opportunities for public use and 
        enjoyment, or for scientific study.
  <bullet> It retains a high degree of integrity as a true, accurate, 
        and relatively unspoiled example of the resource.
    Question 2C. Could you explain the difference between national 
importance and national significance?
    Answer. The definition of ``national significance'' as used by the 
National Park Service to evaluate new national park units is described 
above. In S. 2543, ``national significance'' is a requirement for 
National Heritage Area designation and is defined as, possession of ``. 
. . unique natural, historical, cultural, educational, scenic, or 
recreational resources of exceptional value or quality; and . . . a 
high degree of integrity of location, setting, or association in 
illustrating or interpreting the heritage of the United States.'' In 
comparing the definition of ``national significance'' in S. 2543 and 
the Department's proposed definition of ``national importance'', we 
find that both definitions acknowledge that for an area to be 
designated as a National Heritage Area, it needs to illustrate major 
themes important to our nation's history and have the resources to 
support these themes. The biggest difference between the definitions is 
that under S. 2543, the resources would have to be ``unique'' to be 
contained within a National Heritage Area. Because National Heritage 
Areas are living landscapes that arise from patterns of human activity, 
they contain old factories, stores, houses, and most importantly, 
people living their lives. There is no goal of preserving resources 
unimpaired for future generations because heritage areas are always 
evolving and changing based on the people who live and work there; nor 
are the resources ``unique''.
    Question 3. S. 2543 states that sites will retain the title 
``National Heritage Area'' after the sunset provision has kicked in. 
The intent is to create self-sustaining, nationally recognized 
programs, with Federal start-up funding. Is it appropriate to allow the 
title to be retained after Federal funding is discontinued?
    Answer. The designation of a ``National Heritage Area'' tells 
visitors and locals alike that this area has met a high standard of 
national importance. The Federal matching funds a National Heritage 
Area receives are intended to help the local management entity get 
established in conserving and interpreting the area's nationally 
important resources and stories in a sustainable manner. It is 
appropriate to retain the National Heritage Area designation so long as 
the standard for designation continues to be met.
    Question 4A. If the Heritage Area Program is successful there will 
be many nationally designated areas which will appear to be under the 
auspices of the National Park Service--but in reality--the Agency will 
have little, if any, management control.
    What will be the role of the National Park Service once a Heritage 
Area becomes self sustaining?
    Answer. Even after National Park Service funds are no longer 
available to a National Heritage Area, the NPS may provide technical 
assistance to these areas and work with them to protect natural, 
cultural, scenic and historic resources. NPS will also monitor the 
areas to ensure they continue to meet the criteria. In addition, the 
partners in these areas will be able to apply for funding and other 
assistance programs offered by the National Park Service. For example, 
communities will be able to apply for assistance from the Rivers and 
Trails Program, owners of national historic landmarks can apply for 
Save America's Treasures grants, and battlefield conservation 
organizations can apply for assistance from the American Battlefield 
Protection Program. Finally, as long as the area retains its national 
designation, it will be treated as a partner by the National Park 
Service and listed in our brochures and-publications, which will 
highlight its national importance.
    Question 4B. Is the National Park Service concerned about 
maintaining a level of site integrity once Federal funding is 
discontinued?
    Answer. National heritage areas are large living landscapes that 
will continue to change and adapt to new conditions. The integrity of 
any individual site within the larger National Heritage Area or region 
is not essential as long as the overall nationally important theme is 
preserved along with resources to illustrate the theme, an involved and 
aware citizenry and the local capacity to plan and implement steps to 
preserve and interpret the resources. As long as a representative 
selection of nationally important sites or other resources are still 
available to interpret the theme of the area, the area will retain its 
importance. If the region has developed the capacity to prepare a 
locally supported management plan and has created a stewardship ethic 
within the community, there should be an appreciation of the 
significance of region's resources and the need to care for them.
    Question 4C. How would the National Park Service handle a Heritage 
Area that did not maintain minimum program standards or requirements 
after reaching its sunset date?
    Answer. The criteria offered in S. 2543, if adopted and followed by 
Congress, will go a long way to ensuring that only areas with the 
strongest local coordinating entities are designated in the first 
place. The criteria would require, among other things, local 
coordinating entities to demonstrate during the designation process a 
strong commitment to the heritage area through many years of planning 
and organizing. If the leadership and community residents in a 
designated National Heritage Area did lose interest in providing 
stewardship for the nationally important resources in an area or 
stopped caring for and interpreting the resources, the National Park 
Service could offer technical assistance, as feasible. Ultimately, 
however, it would be up to Congress. Since heritage areas are 
designated by statute, only Congress could remove a heritage area 
designation.
    Question 5. S. 2543 requires the National Park Service to submit 
annual reports to Congress regarding use of funds by National Heritage 
Areas. Does the park service currently conduct any audits of National 
Heritage Areas to ensure funds are being used for the intended purpose?
    Answer. All National Heritage Areas currently receiving National 
Park Service funding are required by their cooperative agreements to 
undertake an annual audit and provide them to the NPS regional office 
with oversight of the area. In the future, the agency will incorporate 
the findings from these audits into an annual expenditure report to 
Congress.
    Question 6. How does the process for Heritage Area designation in 
S. 2543 compare with the designation process for units of the national 
park system?
    Answer. To be designated a unit of the National Park System, an 
area must be evaluated and meet specified criteria for national 
significance, suitability, and feasibility. In addition, various 
management options are also weighed. The professional staff of the 
agency carries out this evaluation, known as a special resource study. 
Under the process established by the National Parks Omnibus Management 
Act of 1998, any study for inclusion of an area in the National Park 
System must be authorized by a specific act of Congress.
    Under the framework provided by S. 2543 for evaluating National 
Heritage Areas, a study would be required to assess whether a proposed 
area meets the specified criteria. This study can be conducted by the 
National Park Service if authorized by Congress or conducted by one or 
more interested parties and reviewed by the Secretary to ensure the 
area meets the criteria for Congressional designation.
    Question 7. S. 2543 sets a funding cap of $15 million annually for 
the National Heritage area program. Your testimony states that a 
funding cap should not be established in legislation. However, on many 
occasions the Administration has testified that new funding should be 
deferred until the maintenance backlog has been addressed. How can you 
object to a funding cap for National Heritage Areas while advocating 
that new efforts be deferred until the maintenance backlog is 
addressed? It looks as though you are trying to have it both ways.
    Answer. The Department does not support unlimited funding for 
heritage areas, but believes that it is more appropriate to cap the 
amount each area is authorized to receive and limit the time during 
which they can receive it, instead of imposing a cap on the entire 
program. There are currently 24 designated National Heritage Areas, 
many of which are authorized to receive appropriations of $1 million 
per year. We would expect to use the appropriations process to allocate 
funds among these areas, which could provide less than the individual 
authorized ceilings.
    The Department's position on individual heritage study and 
designation bills has evolved through the years. During the 107th 
Congress, the Department testified in support of individual National 
Heritage Areas but decided to recommend focusing all available 
resources on the maintenance backlog. During the 108th Congress, the 
Department testified in support of the National Heritage Areas program, 
but recommended deferring action until heritage program legislation was 
enacted.
    Question 8. The NPS currently employs one full time individual to 
manage the National Heritage Area Program. Do you anticipate a need to 
increase the number of NPS personnel working on the National Heritage 
Area Program if S. 2543 becomes law?
    Answer. While the National Park Service allocates funding for only 
one FTE, staff in the Regional offices and in the Washington office are 
already providing oversight and assistance to the program as collateral 
duty. Under S. 2543, up to five percent of the funds made available to 
heritage areas could be used for technical assistance, administrative, 
and oversight duties by the National Park Service.


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

            Statement of Peyton Knight, Executive Director, 
                         American Policy Center

    Chairman Thomas and members of the subcommittee, thank you for the 
opportunity to submit the following testimony on the behalf of property 
rights advocates across the country who are concerned with the impact 
of National Heritage Areas (NHAs), and the ``National Heritage 
Partnership Act'' (S. 2543) in particular, on land use, private 
property rights and local communities.
    National Heritage Areas undoubtedly lead to restrictive federal 
zoning and land use planning. Funding and technical assistance for 
Heritage Areas is administered through the National Park Service (NPS), 
a federal agency with a long history of hostility toward private 
landowners. The recipient of these funds and NPS direction is a 
management entity, which typically consists of strictly ideological 
special interest groups and local government officials. This public/
private juggernaut then imposes its narrow vision of land use planning 
on unsuspecting landowners within a Heritage Area's boundaries. The 
result is a top-down approach to local zoning, with little or no 
involvement from the local citizenry.
    Heritage Areas are not innocuous designations bestowed upon local 
communities simply for the purpose of national recognition. Rather, 
they are land use mandates foisted upon property owners in the name of 
preservation. Quite simply: Heritage Areas have boundaries, and those 
boundaries have consequences for property owners unfortunate enough to 
reside within them. Incredibly, proponents of Heritage Areas argue that 
despite their mission of ``preservation,'' Heritage Areas do not 
influence zoning or land use planning. Yet by definition this is 
precisely what they do.
    According to S. 2543, a NHA is an area that has ``an assemblage of 
natural, historic, cultural, educational, scenic, or recreational 
resources'' that are ``nationally significant to the heritage of the 
United States.'' The legislation goes on to dictate that a NHA 
``provides outstanding opportunities to conserve natural, historical, 
cultural, or scenic features.'' As for the absurdly arbitrary term 
``national significance,'' it is defined in the bill as ``possession of 
unique natural, historical, cultural, educational, scenic, or 
recreational resources of exceptional value or quality.''
    This sweeping definition ensures that every single square inch of 
land in the United States can arguably qualify as a National Heritage 
Area-and therefore be eligible for millions of taxpayer dollars, 
federal protection, federal oversight, and federal land use 
restrictions. No wonder when the first incarnation of S. 2543 (the 
``American Heritage Areas Partnership Program'') first surfaced ten 
years ago, the late Representative Gerald Solomon (R-NY) strongly 
warned his colleagues against the scheme. In a letter dated September 
19, 1994, Solomon wrote:

          I urge you to defend property rights and strongly oppose the 
        American Heritage Area Participation Program . . . The 
        environmentalists advocating this bill have FEDERAL LAND USE 
        CONTROL as their primary objective.
          The bill wastes tax dollars that could be more appropriately 
        spent on maintaining our national parks . . . Property rights 
        defenders have legitimate concerns about the provision in the 
        bill requiring localities to obtain approval by the Secretary 
        of Interior or land use plans . . .
          WHY SPEND $35 MILLION ON NON-FEDERAL HERITAGE AREAS WHEN OUR 
        NATIONAL PARKS DESPERATELY NEED FUNDS FOR MAINTENANCE AND 
        REPAIR?
          Again, I ask you to defend property rights and oppose this 
        bill.
        (The emphasis is Rep. Soloman's--not mine.)

    Little has changed in the ten years since Gerald Solomon warned his 
congressional colleagues about the foolishness and danger of a National 
Heritage Areas program. The advocates of NHA program still have federal 
land use control as their primary objective. The bill still wastes tax 
dollars that would be better spent on a Park Service maintenance 
backlog that now numbers in the billions of dollars. And the Secretary 
of Interior still has the ultimate say over the management and land use 
plans that govern a National Heritage Area, as is stated in section 
5(b) of S. 2543. Again, a National Heritage Areas program is nothing 
less than federal land use policy.
    Also on September 19, 1994, Rep. Bob Smith (R-OR) penned a letter 
to fellow Congressman Richard Pombo, warning him about the inherent 
dangers of a National Heritage Area program:

          Dear Richard: On Tuesday, the House will consider legislation 
        that I consider to be the most significant threat to private 
        property rights I have seen during my twelve years in Congress.
          This legislation . . . will threaten private property by 
        authorizing a broad new program of federal land use controls, 
        extending from coast to coast. There are nearly 100 Heritage 
        Areas currently under consideration and it's likely that your 
        constituents will be impacted by these incredible restrictions 
        on private property.
          This program is based on the existing Columbia Gorge Scenic 
        Area in Oregon and Washington. The management plan for the 
        Gorge regulates nearly every detail of private property use, 
        including the color landowners can paint their homes and the 
        species of trees they can plant in their own yard. Your 
        constituents, like mine, will be outraged at this gross abuse 
        of government over-regulation if this bill is enacted. Believe 
        me, you do not want to be part of a town hall meeting after 
        masses of your constituents learn the federal government has 
        the final say over what they can do on their own property.

    Two NHAs that recently passed the House Resources Committee 
illustrate this federal encroachment on local land use policy. Both the 
National Aviation and the Arabia Mountain National Heritage Area Acts 
specifically direct the management entity to ``encourage local 
governments to adopt land use policies consistent with the management 
of the Heritage Area and the goals of the Management Plan.'' This can 
be construed as nothing less than a top-down, federal zoning mandate.
    In the Oil Region National Heritage Area Act, section 5(b)5 calls 
for creating an ``inventory of the resources contained in the Heritage 
Area, including a list of any property in the Heritage Area that is 
related to the themes of the Heritage Area and that should be 
preserved, restored, managed, developed, or maintained because of its 
natural, cultural, historic, recreational, or scenic significance.'' 
Thus, landowners are subject to the whimsical interpretations of the 
preservation-driven management entity. Should their property be deemed 
``significant'' in any way to the Heritage Area, you can bet that its 
use will be strictly curtailed. Again, this is a federal zoning 
mandate.
    S. 2543 is no different than these examples above, as it too calls 
for the creation of an ``inventory'' of property to be set aside for 
``resource protection'' (read: land use restrictions and lost property 
rights).
    The National Heritage Partnership Act establishes a program whereby 
federal funds are dangled as a carrot in front of local authorities, 
environmental organizations, and preservation societies, while the 
stick of federal zoning and land use mandates are firmly applied. For 
example, when the Augusta Canal National Heritage Area in Georgia was 
in its developmental stages in 1994, NPS Associate Director of Planning 
and Development Denis P. Galvin refused to accept the management plan 
put forth by the planning committee until they succumbed to the Park 
Service's vision of zoning and land use. Specifically, the Park Service 
testified that the Augusta Heritage Area needed to submit ``evidence of 
commitment to modify zoning regulations, and evidence of commitment to 
create a State Park.'' Of course, S. 2543 provides the same opportunity 
for the Park Service to make heavy-handed dictates.
    Property rights and limited government advocates are also concerned 
that National Heritage Areas will effectively become a feeder program 
for a ravenous national parks program. These fears are well founded.
    The Rivers of Steel National Heritage Area in southwestern 
Pennsylvania states boldly on its website:

        Rivers of Steel is spearheading a drive to create a national 
        park on 38 acres of original mill site . . . Bills have been 
        introduced before the U.S. Congress to make this urban national 
        park a reality.

    Thus, here is an example of a National Heritage Area, funded and 
guided by the National Park Service, taking the initiative in lobbying 
Congress for land acquisition authority and the creation of yet another 
national park. It hardly appears that Heritage Areas and National Parks 
are strictly dichotomous.
    Given the adverse impacts that Heritage Areas can have on property 
owners, it is absolutely appalling that S. 2543 does not provide for 
landowner notification prior to an NHA designation. It is morally 
imperative that each and every property owner within the boundaries of 
a proposed National Heritage Area be notified on an individual basis 
(i.e. a simple, one-page letter sent via U.S. Postal Service), and 
given the opportunity to opt-in to the designation. This is far more 
than a common courtesy to landowners. It is the only way to truly gauge 
whether or not the local population is supportive of the designation. 
Advocates of S. 2543 claim that local support is a prerequisite for the 
creation of a National Heritage Area. However, they refuse to document 
this so-called support, and when common-sense mechanisms to gauge 
support are suggested, they stonewall them at every turn. In reality, 
input from the local citizenry is shunned by NHA proponents as they 
prefer to steamroll these designations into existence and spring them 
on unsuspecting landowners.
    In conclusion, the National Heritage Partnership Act is a worse 
idea now than it was ten years ago. Experience shows that it will not 
only become a funding albatross, as more and more special interest 
groups and local governments gather around the federal trough, but also 
a program that quashes property rights and local economies through 
restrictive federal zoning practices. The real beneficiaries of a 
National Heritage Areas program are conservation groups, preservation 
societies, land trusts and the National Park Service-essentially, 
organizations that are in constant pursuit of federal dollars, land 
acquisition, and restrictions on property rights.
    The National Heritage Partnership Act represents federal policy 
making at its worst. Should it become law, S. 2543 will quickly build a 
legacy of wasted tax dollars, lost property rights, and local 
communities swallowed by federal land use restrictions.
                                 ______
                                 
              Statement of Carol W. LaGrasse, President, 
                 Property Rights Foundation of America

    I had the honor of testifying in opposition to National Heritage 
Areas before the hearing of the Energy and Natural Resources Committee 
conducted by Senator Craig Thomas on March 30, 2004, which was followed 
by the Senator's request in a letter dated April 5, 2004 for additional 
answers to four sets of questions on National Heritage Areas. My reply 
to these questions is extremely relevant to S. 2543, the National 
Heritage Partnership Act, which presents a grave threat to private 
property ownership and private property rights. During the past fifteen 
years, I have devoted a great deal of time to raising questions and 
opposition to National Heritage Areas and various federal and state 
preservationist land designations. Because of this, Rep. Jerry Solomon, 
then Ranking Member of the House Rules Committee, arranged that I be 
'invited to present the first opposition testimony to any Heritage Area 
in a hearing on July 28, 1994 held by the House Resources Committee, 
Subcommittee on National Parks, Forests, and Public Lands. This hearing 
precipitated Rep. Solomon's vociferous, visible opposition to National 
Heritage Areas. My work against National Heritage Areas has continued 
all these years. The answers below were presented in my reply to the 
April 5, 2004 letter. I'd like to request that this statement be 
appended in full to the record of the hearing held on June 24, 2004 by 
the Senate Energy and Resources Committee.
    Question 1. The GAO did not find any adverse impact to private 
property. Do you have any specific examples of private property being 
adversely affected by a heritage area? What could GAO have done 
differently to better address private property impacts?
    Answer. As I explained in my testimony, the system of partnerships, 
compacts, carrots and sticks, and the like to establish these greenway 
programs involves precipitating local, multi-jurisdictional and 
regional land use control enactments, land acquisition programs, and 
trails that adversely impact private property rights without putting 
the onus on the heritage area commissions or National Park Service to 
carry out the on-the-ground impositions on private property owners. My 
testimony cited clear-cut policy statements by the Park Service, 
management plans and formative thinking in the greenway advocacy world 
that show how the greenway system is designed to carry out its goal of 
landscape preservation.
    As I explained on the telephone during the adversarial interview by 
Preston Hurd and other members of the staff of the General Accounting 
Office during August 2003, the careful distancing of the official 
federal agencies from local land use jurisdiction makes it impossible 
for an organization of this modest capacity to investigate the impact 
of a National Heritage Area on private property rights. The 
investigator would have to follow a chain of events, from the creation 
of the management plan; the establishment of the heritage area 
commission; to the partnerships, compacts, many meetings of a public 
and less public nature; documents promulgated during implementation of 
the management plan and the like; resultant local, multi-
jurisdictional, and regional enactments; enforcements by such non-
federal agencies; and litigation. The investigator would have to do 
interviews and studies of affected property owners and studies of tax 
impacts. Such studies would have to be conducted over a reasonable 
period of time from establishment of a heritage area, perhaps in the 
neighborhood of a decade. Separate study of trails being created in 
connection with heritage areas would be essential and probably more 
quickly fruitful, because it appears that there is yet no way to 
establish trails through private property through legislation that 
leaves property owners entirely bamboozled about the taking of their 
rights, and once the trails are being created or are in existence, at 
least a few of the property owners take their time from compelling 
their day-to-day affairs to forcefully complain of infringements.
    With respect to trails, which are unfailingly associated with 
heritage areas, it is relatively easy, when a complaint arrives here at 
PRFA to see a connection with a larger motivating entity, such as the 
National Park Service, whose behind-the-scenes responsibility for an 
innocent appearing segment of a relatively long trail in a particular 
locality can be brought to light. However, as with almost all examples 
of private property rights infringements that come to the attention of 
PRFA, examples of these trail infringements on private property rights 
come to the attention of PRFA by pure happenstance, e.g., someone e-
mails or telephones for help, mails a clipping, or the like.
    Examples of threatened and executed condemnations, or threatened 
forced sales, for trails associated with heritage areas that have 
recently come to the attention of PRFA are:

    a. The City of Schenectady, N.Y., threatened condemnation of the 
property belonging to Janice Revella for the 500-plus mile cross-state 
National Park Service Erie Canalway Trail within the Erie Canal 
National Heritage Area. (David Riley, ``Tour de Schenectady--Local 
resident fights City Hall's attempt to put a bike path in her 
backyard''--Metroland, Albany, N.Y., Nov. 7, 2002)
    b. The Town of Wawarsing, N.Y., initiated condemnation proceedings 
for the historic Port Ben railroad station owned by Herter Diener for 
the National Park Service-instigated cross-state Delaware and Hudson 
Canalway Trail within the Delaware and Hudson Heritage Corridor. 
(Dianne Wiebe, ``Negotiations off track in drawn-out dispute over train 
station,'' Daily Freeman.com, Kingston, N.Y., 12/17/2002, referenced 8/
7/03). This heritage corridor involves the Delaware and Hudson Heritage 
Corridor Alliance, but is not yet a National Park Service National 
Heritage Area.
    c. Farmer Ed Richardson, whose land is located near the Saratoga 
National Historical Park in Stillwater, N.Y., complained about being 
approached to allow the trail through his property by representatives 
for the Champlain Canalway Trail, which is the northern spur to Lake 
Champlain from the Erie Canalway Trail in the Erie Canal National 
Heritage Area (according to a reports and an article in the Saratogian, 
Saratoga Springs, N.Y.). Ironically, no newspaper article or other 
public information about this trail appeared until this reporter for 
the Saratogian read my article about the secrecy involved in the trail 
in the New York Property Rights Clearinghouse (``Saratoga County 
Canalway Trail Shrouded in Secrecy,'' Property Rights Foundation of 
America, Fall 2002).
    d. Considering the National Parks typically have property rights 
impacts, anew 38-acre Homestead Words National Park being advocated by 
the Rivers of Steel National Heritage Area for the formerly 400-acre 
Homestead Works site may have property rights impacts if private land 
is contemplated for acquisition.
    (Ref.: http://www.riversofsteel.com/ros.aspx?id=23&h=80&sn=95 Apr. 
15, 2004)

    The GAO could have should addressed property rights impacts more 
deliberately. When interviewing this property rights advocate, the GAO 
interviewers should have taken an interest made, instead of arguing 
about whether to hang up in disgust at this interviewee's remarks. With 
the viewpoint presented that the property rights impacts happen through 
the programs established through the Heritage Area, rather than 
directly, the GAO should have attempted to address that viewpoint. The 
report simply cites the concerns of property rights advocates and GAO 
interviews of officials involved with Heritage Areas and leading 
property rights advocates. This amounts to study by interview.

          ``. . . However, property rights advocates fear the effects 
        of provisions in some management plans. These provisions 
        encourage local governments to implement land use policies that 
        are consistent with the heritage areas' plans, which may allow 
        the heritage areas to indirectly influence zoning and land use 
        planning in ways that could restrict owners' use of their 
        property. Nevertheless, heritage area officials, Park Service 
        headquarters and regional staff, and representatives of 
        national property rights groups that we contacted were unable 
        to provide us with any examples of a heritage area directly 
        affecting--positively or negatively--private property values or 
        use.''
          (Excerpts from ``What GAO Found,'' GAO Testimony Before the 
        Committee on Energy and Natural Resources, U.S. Senate, March 
        30, 2004, on the page before page 1)

    To study the impacts on private property rights, studies could 
consider:

  <bullet> a comparison of the level of zoning before and after 
        implementation of a Heritage Area, including a study of factors 
        influencing changes in zoning with a mind to ascertaining how 
        Heritage Area designation was involved;
  <bullet> the change in land ownership patterns (e.g., government and 
        non-profit as compared to private) after establishment of a 
        Heritage Area;
  <bullet> the change in property values, as compared to similarly 
        situated properties outside during the same time period;
  <bullet> census statistics showing changes in population age groups 
        and ethnic constituency, income levels as after establishment 
        of the Heritage Area (See Toni Thayer, ``National Heritage 
        Area: Water or Historical Preservation?'' September 2003;
  <bullet> real estate tax impacts, possibly caused by the reduction of 
        availability of developable land and the high prices paid for 
        land by government and non profits; increase in litigation 
        following from zoning enacted after establishment of Heritage 
        Area;
  <bullet> study of treatment of property owners whose land is used for 
        trails, involving interviews of every owner to consider the 
        land acquisition or easement acquisition process, modeled after 
        Bo Thott's study of National Park Service acquisitions of land 
        from property owners (``Willing Seller Willing Buyer,'' Bo W. 
        Thott, Washington County Alliance, Cutler, Maine, 1993, posted 
        on PRFA web site at http://www.prfamerica.org/WillingSeller/
        WillingBuyer.html)
  <bullet> surveys of land owners along trailways as to information 
        made available as opposed to segmented development and 
        concealed agenda;
  <bullet> study of experience of trail easement property owners and 
        neighboring property owners with liability and intrusions, as 
        well as reverse harassment of property owners; and
  <bullet> inventory of new or enlarged local and state parks, National 
        Parks, Scenic Byways, All-American Roads, Wild and Scenic 
        Rivers, National Historic Register designation of Sites or 
        Districts, and similar government land acquisition and 
        regulatory structures in Heritage Areas. Studies of affected 
        property owners.

    Question 2. Over 45 million people live within the boundaries of 
existing heritage areas Do you think it would be feasible and even 
possible to implement a system for allowing each property owner to opt 
in or opt out?
    Answer. This response is directed to the query about whether it 
would be feasible to implement a notification system for the opt in or 
opt out concept.
    Yes, it would be feasible. Each individual Heritage Area would be, 
of course, tackled individually. The number of private property owners 
would be somewhat less than the population, considering household size 
and the fact that individual property owners hold multiple properties, 
and own rental properties.
    In each real estate taxing jurisdiction, notices are routinely sent 
to every property owner for the taxes due on each property. All of this 
information is computerized today. Therefore, the name and address of 
every property owner are readily available in a form that is readily 
usable for mailing purposes to conduct an opt out or opt in survey.
    In addition, it is common for jurisdictions to have access to GIS 
(Geographic Information Systems), whereby coordinate-based 
computerization of tax assessment maps can be utilized to select 
properties fitting almost any description, such as one-mile from a 
given watercourse.
    Today, this can be done automatically and all the names and 
addresses of these geographically selected property owners) even if the 
boundaries of the Heritage Area are not a municipal jurisdictional 
boundary) spewed out of the computer for a mailing for any purpose.
    The opt in or opt out provisions would have importance even though 
they would not eliminate the property from within the bounds of the 
Heritage Area and its concomitant increase in land use restrictions and 
other pressures on property owners. The opt in or opt out provisions 
would afford property owners a notification process that the Heritage 
Area is in the works and be an even-handed notification that would 
encourage public participation from all sectors, not just the select 
few who are advocates for greenways and trails and those individuals 
who act as advocates for private property rights by attempting to 
assiduously monitor these programs.
    Question 3. What sort of discussion have you had with 
representatives from the National Park Service or managers of any 
specific Heritage Areas regarding your concerns?
    Answer. I have engaged in discussions with representatives of the 
National Park Service and managers of specific Heritage Areas on 
numerous occasions over the past decade and longer. With rare 
exceptions, the officials expressed their offense at my presence and 
questions by their contemptuous manner and refusal to straightforwardly 
answer my inquiries or to answer the inquiries at all. Park Service 
officials have attempted and to marginalize me, insult me, they have 
treated me in a consistently demeaning manner, attempting to convey 
publicly that I and others concerned about property rights were 
ignoramuses, fanatics, and disrupters. Most interesting of all, except 
for one official whose work I complimented a number of years ago in the 
very respect that the higher officials were in the process of 
reversing, they have never taken any of my comments seriously or 
allowed any of my comments to have any impact on the direction of their 
programs, except for their becoming more secretive and evasive about 
the programs.
    For purposes of this reply, I'll refer to only one or two specifics 
at four relatively recent discussions.

  <bullet> Champlain Valley National Heritage Corridor: Meeting at the 
        canal park in Whitehall on September 19, 2001, presided over by 
        Bill Howland, Executive Director of the lake Champlain Basin 
        Program. This program involves New York, Vermont and Quebec, 
        and is especially hard to get a handle on. It also goes by the 
        name of the Champlain-Richelieu Valley Heritage Corridor. In 
        the viewpoint of its many critics, this Heritage Corridor keeps 
        metamorphosing. At present, after vociferous objections to the 
        heritage corridor, the Lakes to Locks Scenic Byway appears to 
        be an early implementation phase. At the meeting, I advocated 
        that the continuous trail be eliminated. This comment was 
        ignored. I asked Mr. Howland to divulge the federal funding to 
        date. After some diversion tactics, he divulged the funding for 
        that year: I noted his reply of $1.5 million from the EPA, 
        $150,000 from USDA, $350,000 from National Park Service for 
        heritage. (The latter caveat probably related to the fact the 
        Park Service also funds the Lake Champlain Basin Program, along 
        with other agencies.) The funding to date, which I requested, 
        was not available.

    Champlain Valley National Heritage Corridor: Meeting at City Hall, 
Plattsburgh, N.Y., November 19, 2001. The corridor name was referred to 
as the Champlain-Richelieu Valley Heritage Area. Bill Howland, 
Champlain Basin Program, presided. Many opposition concerns were voiced 
from the floor. Opposition was dismissed as concerns because of the 
Adirondack Park. We were referred to as ``the property rights people,'' 
by the person assisting him and, after objection, an apology was 
proffered to us for this. Mr. Howland said that the area would have no 
boundary. Jack Vitvitsky wanted to know the boundary that would be 
affected, but the lack of a boundary meant that no answer was given. I 
complained that the local lifestyle does not fit with tourism, because 
it may not necessarily fit the appealing formulas being prescribed, and 
that the program goals would present a fundamental problem for the 
ordinary local people. Mr. Howland asked for this comment to be stated 
in writing. Susan Allen asked, ``Why are you writing the bill?'' [and 
not us] No response to this. Mr. Howland claimed that there were no 
regulations contemplated, only grants, but the many people at the 
meeting who had not come to request grants did not believe him, because 
nothing of substance was offered to back up this statement, and the 
promotional aspect of the slides indicated a contrary scenic 
preservation goal. Concern was expressed about a federal Lakes to Locks 
Scenic Byway, which was formerly the state Champlain Valley Scenic 
Byway, but this topic was evaded. Mr. Howland claimed that he had 
refocused the program to economics on account of property rights. He 
said that he was considering an opt in--opt out method. However, he did 
not have any credibility, especially when he said that they had already 
entered into a contract with Quebec Labrador Foundation, an 
organization that no one concerned with property rights knew anything 
about. He said that funding was brought to the program by the National 
Park Service.
    Champlain Canalway Trail: Cozy meeting in public school cafeteria, 
Schuylerville, October 9, 2002. Attending were officials from the 
National Park Service, New York State Canal Corporation, consultant 
from the New York Parks and Conservation Association and perhaps two 
private individuals, totaling six individuals, plus my husband and I. 
My husband and I were not invited to this small meeting, as the public 
was not noticed. After sitting through the planning session to form a 
``local'' ``Friends'' group and obtain a first grant, I attempted to 
obtain funding information, but was totally denied, and charged with 
being disruptive for persisting in my questions.
    Erie Canalway National Heritage Corridor: Public meeting, The Hyde 
Museum, December 9, 2003. The official greeting attendees said that 
questions would be answered from the floor throughout the meeting, but 
no one called on me when I repeatedly raised my hand. I had to call my 
questions out. I asked for funding amounts, and was given partial 
information after repeating my question several times. During the 
section on recreation, I asked how the Erie Canalway Trail eminent 
domain ``partnerships'' with local municipalities worked, and pointed 
out Janice Revella in the audience, whose property was threatened by 
condemnation. I received no answer, and finally was told that eminent 
domain was not on the agenda. During the section on economic 
development partnerships, I asked how the partnerships worked that a 
single developer was sold all the development rights to the entire 500-
plus mile canal for a mere $30,000 (Michelle Breidenbach, ``Man pays 
$30K for canal rights, Syracuse Post-Standard, article published in 
Post-Star, Glens Falls, N.Y. September 15, 2003), and was told that 
this was the Canal Corporation, which was entirely separate. However, a 
few minutes later, the presiding officer introduced a representative of 
the Canal Corporation in the audience, as though he were an honored 
guest.
    Question 4. Heritage areas are here to stay, but we have an 
opportunity to make improvements as new heritage Areas are proposed. 
What recommendations would you make for protecting--private property 
rights in current and future Heritage Areas?
    Answer. The following recommendations would allow the preservation 
of the nation's heritage to receive federal support while eliminating 
the greenway potential of Heritage Areas and the infringements on 
property rights that are designed into the Heritage Area program.

Respect and promote living historic heritage
    Where a specific heritage is to be preserved, such as an industrial 
heritage, the heritage program should feature the importance of 
industry to the heritage of the area up to the present time. For 
instance, the Congress should require a certain proportion of funding 
to involve a promotion of awareness of the importance of modern 
factories and industrial production, and the heritage program proffered 
in the management plan could also promote tours of modern operating 
factories and industrial facilities. Factory tours have rebounded in 
popularity, and this could be promoted with the heritage program. For 
example, in New York's Hudson Valley, tours of the large shorefront 
facilities of the cement industry should be facilitated with federal 
funding.
    Where the heritage is lumber production, typical landscape 
preservation consultants who produce falsified history should be 
avoided, and qualified historians who retain an interest in the present 
used. An example in upstate New York where a Scenic Byway kiosk system 
was put in place, this focus on preserving the living heritage would 
change the policy so that the role of government land acquisition in 
reducing timber production would be factually presented, rather than 
blaming industrial factors. Tours of present-day logging operations 
could be promoted. In Corinth, N.Y., a historic paper mill operated by 
International Paper Company on the Hudson River recently closed. 
Federal investment for living historic preservation might make a 
difference in the maintenance of such living heritage typical to a 
geographic region.

Establish a fair granting process
    Where Heritage Areas and trails are being promoted, the granting 
process is pre-ordained by the relationships that already exist between 
the National Park Service and its ``partners'' consultants. The 
application process should be publicly and widely advertised and all 
comers should be able to apply for the lucrative grants that become 
available. Consultants such as the New York Parks and Conservation 
Association should not be routinely selected, but should have to 
compete in the open arena. Subcontracts through consultants should be 
accessible to freedom of information law where government funds are 
involved. A variety of ``heritage'' projects should be open to 
competition, including those that benefit private property owners 
rather than nonprofits and government entities.
Establish Procedures for Public Scrutiny of Budget at the Local Level
    Open up to public scrutiny the budget of the entire heritage 
process, including all funding from ``partner'' agencies at federal, 
state, regional and local level. Publicly maintain financial statements 
and audits of the origin and routing of all funding from appropriation 
to on-the ground expenditures for actual work. Where funding is 
contemplated that affects a particular area, advertise publicly for 
public comment on that expenditure.

Eliminate geographic delineation of Heritage Areas
    Heritage programs should not be geographically delineated because 
this works toward the greenway goal and landscape preservation that has 
been central to National Heritage Areas from inception. With the 
realization that Heritage Areas are not about historic preservation or 
any but the most narrow sphere of economic development, comes the 
necessity of a single measure that would stymie their purpose of 
landscape preservation. Instead of geographically delineated Heritage 
program, direct the program to block grants allocated state-by-state by 
an agency that is not geared to landscape preservation, such as Housing 
and Urban Development, the Department of Commerce, or a new bureau in 
the National Park Service that is not oriented to landscape 
preservation, but is instead expert in all spheres of national 
heritage, especially the living industrial heritage and the continuing 
multifaceted independent rural lifestyle with its scruffy way of living 
that is not designed to fit into an elite subdivision.
    Instead of attempting to restore the quaint past by regulation, 
where the product is only empty shells of dead villages that lonely 
city dwellers visit transiently, let's celebrate the past along with 
the constant evolution of new traditions in the context of our evolving 
heritage.
    Instead of implementing harsh landscape preservation where ordinary 
rural people will be displaced, get the federal government our of 
sophisticated advocacy for land use control, and let the chips fall 
where they may with local people controlling their future with the 
degree of planning regulation that they freely choose without heavy 
pressure from the ``experts.''

Prohibit all the partnerships and the Park Service's self-promotion
    Prohibit the Park Service from promotional work for its policies at 
the local level, and from studies of historical or regional areas. 
Prohibit the Park Service from working with nonprofit agencies. This 
can be accomplished by opening up the procurement process to bidding. 
This change can be assisted by ceasing to write any specific non-profit 
into Congressional legislation.

Take the Park Service out of trail development
    With its terrible record of treatment of private property owners, 
and its one-sided agenda of promoting landscape preservation to the 
detriment of the maintenance of existing National Parks, it is 
essential to get the Park Service's spidery reach out of private 
property all across the country. An important and easy way to 
accomplish this is to prohibit the Park Service and its personnel from 
participating in the studies and development of trails, or developing 
support organizations. All trails should be publicly laid out in their 
full length, width and other aspects, such as style of ownership and 
access, desired viewsheds, from the proposal stage, and all potentially 
affected property owners individually notified. If trails are 
developed, the development should be administered by the Department of 
Transportation and the eminent domain protection protections under the 
federal highway law applied.

Inventory government-owned land
    No additional Heritage Areas should be established and no further 
development of trails should take place until a full inventory of lands 
owned by the federal and state government, and of federal areas such as 
National Heritage Areas and trails, is completed.

Conduct environmental impact analysis of Heritage Areas including land 
        ownership impact studies
    In some federal areas under consideration in Congress, major 
changes of land ownership patterns are underway. Consider the Highlands 
Area proposed for Northern New Jersey, Southeastern New York, eastern 
Pennsylvania, and western Connecticut. In New York, the State 
government, the Open Space Institute, other land trusts, and other 
agencies are cutting into the base of private landownership without any 
land ownership impact studies being conducted. Tax impacts are becoming 
profound, while future economic potential is being narrowed. If an area 
is to be designated, contrary to the recommendation above, when it is 
proposed, the specific area should be studies for land ownership trends 
and these should be projected, with the concomitant taxation and 
economic and social impacts, in an environmental impact study I 
accordance with NEPA.
    My goal in this examination of the National Heritage Area program 
is to offer information, viewpoints and specific proposals that are 
worthwhile and practical to help preserve our heritage in its great 
diversity while promoting private property rights to their fullest 
extent as guaranteed in the United States Constitution. This analysis 
of the National Heritage Area program leads to the conclusion that the 
S. 2543, the National Heritage Partnership Act, presents serious 
threats to private property and private property rights, and should be 
withdrawn. A bill that would preserve our constitutional heritage of 
private property ownership and private property rights would have 
fundamental differences from the bill before the Committee.


</pre></body></html>
